           UNCLASSIFIED

  United States Department of State
and the Broadcasting Board of Governors
     Office of Inspector General




   A Review of U.S. Policy
     Toward Venezuela
 November 2001 - April 2002

Report Number 02-OIG-003, July 2002




     REDACTED FOR PUBLIC RELEASE




          UNCLASSIFIED
                                             UNCLASSIFIED



                          TABLE OF CONTENTS

                                                                                                        Page Number

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            5
RESPONSE TO QUESTION 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
RESPONSE TO QUESTION 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
RESPONSE TO QUESTION 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
RESPONSE TO QUESTION 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
RESPONSE TO QUESTION 5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  19
     Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        19
     NED Assistance to Venezuela . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      20
     Department of State Responsibility for NED Programs . . . . . . . . . . . . . .                                        25
     Military Assistance Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   26
     USAID Assistance Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      27
     Charts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   28
     Appendices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         31
MISCELLANEOUS ISSUES RAISED BY THE NEWS
MEDIA IN VENEZUELA OR THE UNITED STATES . . . . . . . . . . . . . . . . . . . . . . . 35
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
LIST OF ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45
A TTACHMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49




                                            UNCLASSIFIED
                                      UNCLASSIFIED




                      EXECUTIVE SUMMARY

By letter dated May 3, 2002 (see Attachment 1), Senator Christopher J. Dodd,
Chairman of the United States Senate Subcommittee on Western Hemisphere,
Peace Corps, and Narcotics Affairs of the Senate Foreign Relations Committee,
asked the Inspector General of the United States Department of State (Depart-
ment) and the Broadcasting Board of Governors (OIG) to conduct a review of U.S.
policy and actions during the weekend of April 12-14, 2002, when Venezuelan
President Hugo Chávez was briefly ousted from power, and the six-month period
preceding that weekend. OIG is empowered to conduct such a review pursuant to
Sections 209(b)(5) and 209(g) of the Foreign Service Act of 1980.

Specifically, Senator Dodd asked OIG to attempt to answer five questions. The
questions and our answers in brief follow:

         1.“What actions did Embassy Caracas and the Department of State take in
         response to the events of April 12-14? Here, I request a detailed chronology of
         the course of events and the response by Embassy and Department officials,
         including contacts between Embassy and Department officials and the interim
         government and its supporters.”

    Throughout the course of the weekend of April 12-14, Embassy Caracas and
the Department worked to support democracy and constitutionality in Venezuela.
Based on credible reports that (a) pro-Chávez supporters had fired on a huge crowd
of peaceful Chávez opponents, killing some and wounding others; (b) the Chávez
government had attempted to keep the media from reporting on these develop-
ments; and, bowing to the pressures, (c) Chávez had fired his vice president and
cabinet and then resigned, the Department criticized the Chávez government for
using violent means to suppress peaceful demonstrators and for interfering with the
press. Both the Department and the embassy worked behind the scenes to per-
suade the interim government to hold early elections and to legitimize its provi-
sional rule by obtaining the sanction of the National Assembly and the Supreme
Court. When, contrary to U.S. advice, the interim government dissolved the assem-
bly and the court and took other undemocratic actions, the Department worked
through the Organization of American States (OAS) to condemn those steps and to
restore democracy and constitutionality in Venezuela.




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   1 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED



                    2.“What was U.S. policy toward Venezuela during the six months preceding
                    the weekend in question? By what means was this policy expressed by the em-
                    bassy and the Department? Were the actions of the U.S. government - both in
                    the six months before the weekend and during that weekend - consistent with
                    U.S. policy in support of the Inter-American Democratic Charter?”

              In brief, the policy of the United States toward Venezuela during the operative
          period was support for democracy and constitutionality. The Department and the
          embassy urged the Chávez government to conduct itself in a democratic and
          constitutional fashion, and the Department and the embassy urged opponents of
          the Chávez government to act within the limits of the constitution of Venezuela.
          This policy was expressed orally in numerous meetings and occasional speeches and
          press statements throughout the period. The policy was fully consistent with the
          Inter-American Democratic Charter (IADC) (see Attachment 2), the OAS agree-
          ment designed to promote democracy and constitutionality in the Americas.

                    3.“Did embassy or Department officials meet with opponents of the Chávez
                    government in the six months preceding the weekend in question? If so, with
                    whom, with what frequency, and at what level? Were any such meetings consistent
                    with normal embassy or Department practice?”

              Embassy and Department officials frequently met with individuals and groups
          opposed to President Chávez during the operative period. These meetings took
          place at all levels of the Department and the embassy. Such meetings are consis-
          tent with normal embassy and Department practice throughout the world.

                    4.“Did opponents of the Chávez government, if any, who met with embassy or
                    Department officials request or seek the support of the U.S. government for
                    actions aimed at removing or undermining that government? If so, what was the
                    response of embassy or Department officials to such requests? How were any
                    such responses conveyed, orally or in writing?”

              Taking the question to be whether, in any such meetings, Chávez opponents
          sought help from the embassy or the Department for removing or undermining the
          Chávez government through undemocratic or unconstitutional means, the answer is
          no. Chávez opponents would instead inform their U.S. interlocutors of their (or,
          more frequently, others’) aims, intentions, and/or plans. United States officials
          consistently responded to such declarations with statements opposing any effort to
          remove or undermine the Chávez government through undemocratic and unconsti-
          tutional means. These responses were conveyed orally.




2 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                          UNCLASSIFIED
                                      UNCLASSIFIED



         5.“Were U.S. assistance programs in Venezuela during the six months prior to
         the weekend of April 12-14 - either through “normal” assistance channels or
         through programs funded by the National Endowment for Democracy - carried
         out in a manner consistent with U.S. law and policy?”

    OIG found nothing to indicate that U.S. assistance programs in Venezuela,
including those funded by the National Endowment for Democracy (NED), were
inconsistent with U.S. law or policy. While it is clear that NED, Department of
Defense (DOD), and other U.S. assistance programs provided training, institution
building, and other support to individuals and organizations understood to be
actively involved in the brief ouster of the Chávez government, we found no
evidence that this support directly contributed, or was intended to contribute, to
that event.




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   3 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED




4 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                          UNCLASSIFIED
                                      UNCLASSIFIED




                               METHODOLOGY

The Inspector General personally led a multi-disciplinary team of inspectors,
auditors, and information technology specialists, most of whom devoted nearly all
of their time to this review from May 3, 2002, until the submission of this report
on July 26, 2002. In addition to the Inspector General, the team members were
Ambassador Sheldon J. Krys, Senior Advisor; Robert B. Peterson, Acting Assistant
Inspector General for Inspections, J. Richard Berman, Acting Assistant Inspector
General for Audits; [(b)(6)------------------], Security and Intelligence Oversight
Inspector; Robert S. Steven, Inspector; Richard Astor, Audit Director; Herbert
Harvell, Audit Manager; [(b)(6)------------------], Senior Auditor; [(b)(6)---------------],
Senior Auditor; [(b)(6)------------------], Management Analyst; [(b)(2)------------------],
Information Technology Specialist; and [(b)(6)------------------]. Frank Deffer, the
Acting Assistant Inspector General for Information Technology; Linda Topping-
Gonzalez, the Assistant Inspector General for Congressional and Media Affairs,
Policy, and Outreach; and Richard N. Reback, Counsel to the Inspector General,
provided advice and counsel as needed.

    To facilitate our contact with personnel in Embassy Caracas under the direction
of those federal agencies which their offices oversee, we were accompanied at
certain meetings at Embassy Caracas, DOD, the United States Southern Command
(USSOUTHCOM), and the Defense Intelligence Agency (DIA) by, respectively,
[(b)(6)------------------], Intelligence Operations Specialist, from the Office of
Inspector General of DOD, and Colonel Benjamin Barnard, Senior Inspection
Manager, from the Office of Inspector General of DIA.

   Interviews were conducted in Washington, D.C., Miami, Florida (the site of
USSOUTHCOM), Caracas, Venezuela, and Brasilia, Brazil (where the present
ambassador was ambassador to Venezuela during most of the applicable period).

    During the course of this review, OIG examined almost 2000 documents. We
interviewed (in some cases, more than once) more than 80 officials from the
Department, Embassy Caracas, other federal agencies that are represented at
Embassy Caracas, the NED, and NED’s core grantees.

    Purposely, we did not interview any Venezuelans, either supporters or oppo-
nents of the Chavez government. We were concerned that doing so could compli-
cate the work of Embassy Caracas in dealing with the Venezuelan government and

OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   5 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED



          its opponents, especially at a time when the political situation in Venezuela remains
          so volatile.

              This report contains a classified annex, so as to provide the Congress with the
          requested information and, at the same time, adequately to protect identities and
          certain categories of information. The classified annex is considered extremely
          sensitive and access must be strictly controlled.

              OIG was asked to complete this report by July 3, 2002, if possible. So as to
          produce as complete and polished a report as possible, to interview all those whom
          we thought might have pertinent information, and to give relevant parties sufficient
          time to review and comment on a draft of it, we requested and obtained an exten-
          sion until July 26, 2002.

              While we believe that the conclusion that we have reached is the correct one,
          and while we have conducted as thorough and extensive a review as reasonably
          possible within the agreed upon period, we must add that there remain numerous
          documents to review. We obtained reams of electronic data from the Department’s
          information systems, including those located at Embassy Caracas and in the West-
          ern Hemisphere Affairs (WHA) Bureau in Washington. Using keyword searches and
          other tools, we are analyzing this data to locate additional documents - including e-
          mails, memoranda, letters, and reports - that may be relevant to this review.

              We note that there are some apparent gaps in the electronic information. For
          example, at this time, we are not sure we have all e-mails from the embassy’s
          classified internal system. According to embassy information technology staff, they
          did not have enough recording tape to back up their systems fully; instead, they
          used the same tapes over and over again, and as a result, data from that time period
          may have been lost.

             Fortunately, we have been able to obtain some of this information from other
          sources. We will continue our analysis in an effort to close the gaps that remain.
          We note, too that we only recently received additional documents from WHA.

              So as to do not just a thorough review but an exhaustive one, we fully intend to
          review every single record (hard copy and electronic) that remains to be examined.
          Based on the voluminous materials we have examined so far (including a spot
          check of the recently received material) and the numerous interviews that we have
          conducted, we do not believe that we are likely to uncover anything that will
          contradict or otherwise materially affect the conclusion of this report.




6 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                          UNCLASSIFIED
                                      UNCLASSIFIED



     If, however, we do uncover anything that does contradict or otherwise materi-
ally affect the conclusion of this report, we will promptly supplement this report
with another one that describes what we found.

    We have added to this report as additional attachments a selection of docu-
ments and photographs which may be of general interest. These include a copy of
Public Law 107-115, January 10, 2002, Foreign Operations, Export Financing, and
related Programs Appropriations Act, 2002 (see Attachment 10), and a selection
of photographs taken during these events (see Attachment 12).




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   7 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED




8 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                          UNCLASSIFIED
                                      UNCLASSIFIED




               RESPONSE TO QUESTION 1

         “What actions did Embassy Caracas and the Department of State take in
         response to the events of April 12 -14? Here I request a detailed chronology of
         the course of events and the response by Embassy and Department officials,
         including contacts between Embassy and Department officials and the interim
         government and its supporters.”

In response to this question, we have chosen to extend the requested period of
review to April 11–15, 2002. In our judgment, this provides a better understanding
of what took place, and is more responsive to what we understand to be the intent
of the question.

    We have drawn from chronologies of events and actions compiled by WHA
(including information supplied by Embassy Caracas), the US Mission to the OAS
(USOAS), the Department’s Operations Center (S/S-O), the Venezuela Task Force
established in S/S-O from 4:00 PM on April 13 to 10:14 AM on April 16, 2002,
USSOUTHCOM in Miami, and media sources.

    Additional information was drawn from cables exchanged between the Depart-
ment and Embassy Caracas, electronic mail communications, and interviews with
American participants in the events. As explained above in the Methodology
section of this report, OIG interviews were not undertaken with Venezuelan or
other non-United States citizens. Where we have sufficient information, we have
expanded upon the entries in the chronology to put them in context. In some
instances, we have been unable to find written records of the specific U.S. re-
sponse.

    There often is no written record of the content of telephone calls, for example.
Participants may have made sketchy notes, or none at all, in the press of events. It
is common practice in the Department to route conference calls through S/S-O
conference lines, or to ask S/S-O to “patch” calls between parties. These calls are
not recorded, and the S/S-O staff, the “Watch,” monitors and keeps notes only
when specifically requested to do so by all participants. In a few instances we have
found Watch notes, in e-mail form, summarizing a conference call. Participants
often had difficulty in remembering what was said in a particular call.




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   9 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED



               Given the sheer quantity of data, we have had to exercise our judgment in
           selecting entries for this compilation that we consider most responsive to the
           request.

               Much of the information included in this chronology is based upon classified or
           administratively controlled documents, and includes information and names pro-
           tected under national security and privacy laws and regulations. It may be that
           some of this information can, and eventually will, be declassified and made avail-
           able for public reference. To avoid delay, we have provided the requested informa-
           tion in classified form in the annex to this report.




10 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED




               RESPONSE TO QUESTION 2

         “What was U.S. policy toward Venezuela in the six months prior to the week-
         end? By what means was this policy expressed by the Embassy and the Depart-
         ment? Were the actions of the U.S. government – both in the six months before
         the weekend of April 12 and during that weekend – consistent with U.S. policy
         in support of the Inter-American Democratic Charter?”

United States policy toward Venezuela in the six months prior to the events of mid-
April covered a wide range of areas of interest to the United States, including
political, economic, military, and narcotics-related issues. Accordingly, we have
interpreted the question to be whether the United States supported the use of
undemocratic or unconstitutional means to remove or otherwise oppose the Chávez
government.

    Each U.S. diplomatic mission is required to prepare annual Mission Perfor-
mance Plans (MPP). The MPP covers planning for the fiscal year (FY) two years
ahead. These plans set out U.S. national interests in relation to the mission’s host
country, strategic goals, etc., and identifies the sections and agencies in the mission
which are to deal with each area of interest and goal. The MPP serves as a guide
for budgeting and staffing.

    “Promoting democracy” will be a lower priority in an already democratic
country. For FY 2002 in Venezuela, in the plan prepared in 2000, promoting
democracy was ranked in fourth place. In the FY 2003 plan, prepared in 2001,
democracy moved to the highest priority. The strategy was to engage not only
high-level civilian Venezuelan officials, but also the military, police, judicial system,
media, non-governmental organizations, academia, and the business community, in
efforts to strengthen existing democratic institutions and to build new ones. The
aim was to encourage a vibrant democracy with stronger human rights and labor
rights, a robust civil society, unfettered freedom of expression, and the honest and
efficient administration of justice. This dramatic reordering of priorities clearly
reflected the growing concern of U.S. officials about the various anti-democratic
actions deemed by the United States to have been taken by the Chávez govern-
ment.

   With regard to the use of unconstitutional or undemocratic means to remove or
otherwise oppose the Chávez government, U.S. policy was repeated so often and so

OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   11 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED



           consistently that it became mantra-like. Department spokesmen, Washington-
           based U.S. officials of all agencies and at all levels, and Embassy Caracas represen-
           tatives all stated and re-stated publicly and privately U.S. opposition to any un-
           democratic or unconstitutional political change in Venezuela.

                For example, in November 2001, Acting Assistant Secretary of State for WHA
           Lino Gutíerrez was quoted in the Venezuelan press as saying: “We would categori-
           cally reject any attempt to remove Chávez. We consider President Chávez to be
           the democratically elected leader of Venezuela. We stand by the Organization of
           American States Democratic Charter, which says very clearly that any government
           that achieves power via extra-constitutional means will not be welcome in the
           OAS.”

               In February 2002, Department spokesman Richard Boucher was asked:
           “…would the United States support any movement from the military of Venezuela
           against a democratic and elected president?” He responded, “…the OAS has
           adopted a democracy charter, and we are all pledged to respect democracy in this
           hemisphere. That includes not only militaries, but also governments. And we have
           expressed a lot of concerns recently about some of the actions that President
           Chávez, or at least political supporters of President Chávez, have taken against
           journalists and democratic institutions. So our view remains the same, whichever
           side is threatening democracy, and that is that democratic institutions in Venezuela
           and elsewhere need to be respected, and that any changes that occur need to be
           democratic and constitutional.”

               Later in February, Mr. Boucher reiterated the U.S. position: “I’ll say the same
           thing as last week. I’ll say it again and again. We believe that all parties should
           respect democratic institutions. Those who may want change, political change,
           need to pursue it democratically and constitutionally.”

               This is but a sampling of many such expressions, public and private, made by
           U.S. officials in Washington. The same policy line was followed by Embassy
           Caracas. It is well documented in the records that we reviewed, and confirmed in
           our interviews with mission officers from all agencies, that both Ambassadors
           Donna Hrinak1 and Charles Shapiro2 explained the policy clearly to their subordi-
           nates and insisted firmly that it was to be conveyed to Venezuelans without
           “winks, nods, nudges, or signals.” A month to the day before the April events
           began, Ambassador Shapiro reminded his staff at his very first meeting with them
           “…that the United States will not support a coup d’etat and that all should guard
           1
            Ambassador Donna J. Hrinak assumed charge of our embassy in Venezuela on August 14, 2000, and left
           Venezuela on February 27, 2002.
           2
               Ambassador Charles S. Shapiro assumed charge of the mission in Venezuela on March 9, 2002.


12 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED



against sending signals intentionally or unintentionally that we would do so.”

     Among numerous documented examples of warnings against coups and the
like, we cite a luncheon with key Venezuelan businessmen in mid-March during
which Ambassador Shapiro, responding to questions on “hypothetical situations,”
stated flatly that the United States would not support a coup d’etat or any other
extra-constitutional change of government. An officer of USOAS at about the
same time told prominent anti-Chávez businessmen that any such change would be
“unacceptable” to the United States and the international community. These
declarations continued right up to the moment when Chávez’s opponents moved to
overthrow him.

    We found no evidence of any deviation from this policy line by U.S. officials,
publicly or privately. A New York Times article of April 16, 2002, quoted an
unnamed “Defense Department official” as saying, “We were not discouraging
people. We were sending informal, subtle signals that we don’t like this guy. We
didn’t say, ‘No, don’t you dare,’ and we weren’t advocates saying, ‘Here’s some
arms; we’ll help you overthrow this guy.’ We weren’t doing that.” If there was any
such DOD official, despite our best efforts, OIG has not been able definitively to
identify him or her. If any such unspoken signals of support for removing President
Chávez undemocratically or unconstitutionally were sent by Department or em-
bassy officials, we found no evidence of it.

    The official U.S. position was repeated so frequently and formulaically that
Venezuelan opposition figures came to anticipate it. For example, in one meeting
with a visiting Congressional staff delegation in Caracas, a Venezuelan soliciting
the visitors’ support for a “post-Chávez transitional government” forestalled the
embassy escort’s response by saying “Be quiet. We know what you are going to
say!” On another occasion, a meeting between Ambassador Shapiro and Venezu-
elans was shocked into uncomfortable silence by the vehemence of the
ambassador’s warnings against a coup d’etat. We think it fair to say that everyone
of consequence in Venezuelan political and military circles was well aware of
American opposition to a coup or anything resembling a coup by mid-April 2002.

    If the U.S. policy was really so clear and consistent, the question arises of why
Chávez’s opponents disregarded U.S. warnings and attempted to overthrow him.
And, why did the interim Carmona government likewise ignore U.S. policy, abolish
the National Assembly and the Supreme Court, and take other undemocratic
actions?

    There are several possible explanations. First, the U.S. government had less
influence over internal Venezuelan political developments than it was thought to


OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   13 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED



           have by its critics. Some Chávez opponents told U.S. officials frankly that they
           heard the warnings and understood the possible consequences of overthrowing
           President Chávez, but they would nevertheless do what they perceived to be in
           their and Venezuela’s best interest.

               Second, some opponents of the Chávez government heard the warnings, but
           did not really believe what they heard. High U.S. officials themselves occasionally
           commented on this with some sense of despair, before and after the overthrow
           (and restoration) of President Chávez.

               Third, on at least some occasions, U.S. warnings may not have gone far enough.
           Among the many accounts of such warnings, few went beyond the standard,
           ritualistic, “no undemocratic or unconstitutional change” formulation. Warnings of
           non-recognition of a coup-installed government, economic sanctions, and other
           concrete punitive actions were few and far between. This, too, has been recognized
           and lamented in retrospect by some senior U.S. officials.

               The mission in Caracas, and the U.S. government as a whole, had limited
           contacts with those individuals and elements in Venezuelan society who supported
           President Chávez over the course of the relevant period. This element was, and
           apparently still is, a sizable one; it elected President Chávez, rallied to his support
           when he was ousted, and restored him to power. Some Chávez opponents may
           have taken this imbalance in contacts to indicate tacit U.S. support for President
           Chávez’s ouster, notwithstanding official policy to the contrary. This shortcoming
           also was recognized and acknowledged by some U.S. officials. For example, in
           drafting the embassy’s MPP in 2001, Ambassador Hrinak included broadening
           embassy contacts as a goal, and in early April 2002, Ambassador Shapiro instructed
           his reporting officers to broaden their contacts with, and reporting on, pro-govern-
           ment politicians. In addition, he mentioned in meetings with President Chávez
           himself that the embassy had serious problems in arranging meetings with govern-
           ment officials and pro-government politicians, and asked the president to encour-
           age his people to accept invitations to meet with embassy officers.

              Finally, the long history of U.S. intervention in Latin America doubtless
           weighed in the balance. Current protestations of support for only democratic
           means of changing unfriendly governments may have rung hollow in the ears of
           Venezuelan political and military leaders.

                We have addressed this question at some length in an effort to explain more
           fully the situation we found, and to attempt to anticipate follow-up questions
           which might be raised. The fact remains that we found no evidence that U.S. policy
           during the operative period was anything but fully consistent with the democratic
           and constitutional principles of the IADC.
14 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED




               RESPONSE TO QUESTION 3

         “Did Embassy or State Department officials meet with opponents of the Chávez
         government in the six months before the weekend of April 12? With whom?
         With what frequency? At what level? Were these meetings consistent with nor-
         mal Embassy or Department practice?”

Department and Embassy Caracas officials during this period met frequently, at
high levels, with opponents of the Chávez government. Meetings involved figures
in the Venezuelan government, the military, political parties, non-governmental
organizations, labor organizations, business organizations, the media, and religious
groups. These meetings were consistent with normal embassy and Department
practice.

    This conclusion was reached after review of communications exchanged
between the Department and Embassy Caracas, interviews with participants in the
events, chronologies of events prepared by WHA, Embassy Caracas, USOAS, the
Venezuela Task Force established in the Department in mid-April, and the S/S-O
log of the period. It cannot be guaranteed that all meetings were covered in these
records, but no evidence has been found to suggest that significant unreported
contacts took place. In an effort to present a more complete account of U.S.
officials’ meetings, we have included meetings with both opponents and supporters
of the Chávez government (see classified annex).

    We found it necessary to make certain interpretations of the questions posed.
In some cases, a significant contact could not be characterized definitively as an
“opponent” or “supporter” of the Chávez government. The term “meet” was
defined to exclude casual encounters, when it appeared clear that information
received or given (if any) was unremarkable.

    To be sure, some officers in Embassy Caracas (for example, military attachés,
military assistance group officers, and narcotics law enforcement liaison officers)
necessarily dealt primarily, if not exclusively, with Venezuelan government officials,
whose personal political views were unexpressed, irrelevant, or unknown. But,
during the period in question, the embassy’s and Department’s contacts were
heavily weighted toward individuals and groups known to be opponents of the
Chávez government. This is explained in part by the fact that supporters of Presi-
dent Chávez tended to view the U.S. government as unsympathetic to them, and

OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   15 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED



           accordingly, they did not seek out contact with U.S. officials. For example, in
           several instances, Ambassador Hrinak’s overtures to the Chávez government were
           rebuffed. Two cabinet ministers refused her invitation to visit the United States.
           Though she says that she called him repeatedly, the vice president refused to talk to
           her. President Chávez never accepted a dinner invitation.

                It is clear, though, that neither the Department nor the embassy sought out
           Chávez supporters in or out of government in any aggressive, organized fashion.
           The opposition’s willingness to talk to Embassy Caracas in detail about their plans
           against President Chávez and the embassy’s willingness to listen may have left
           doubts about the sincerity of our professed opposition to undemocratic and uncon-
           stitutional means of removing President Chávez. We do not mean to suggest that
           the embassy should have avoided meeting with the opposition; but the frequency
           of such contacts, and the relative lack of contact with pro-Chávez elements, may
           have led some Venezuelans to question whether the United States was really
           neutral as regards Venezuelan internal politics. As noted above, in retrospect, this
           imbalance in outreach was acknowledged by U.S. officials to be a shortcoming, and
           we understand that steps have been taken subsequently to increase contacts with
           the Chávez government and its supporters in Venezuelan society.

               The Department and the embassy exercised some discretion and caution in
           meeting with opposition figures, lest particular meetings be seen as support for a
           coup. The record shows occasions when Department and embassy officials had
           reason to believe that a particular individual or group was involved in coup plotting
           and U.S. officials refused to meet with that individual or group.

                With regard to the actual names of those in the Venezuelan opposition with
           whom the Department and embassy met, we have elected to err (if at all) on the
           side of circumspection. So as not to inhibit the embassy in any way in its necessar-
           ily ongoing efforts to deal with both the Chávez government and its opponents, and
           in accordance with U.S. laws and regulations governing the protection of intelli-
           gence information, we have limited to the report’s classified annex the identities of
           those with whom U.S. officials met.

               The evidence indicates that all elements of the U.S. mission in Caracas were
           under the full control of the ambassadors during the period that is the subject of
           this review. The two successive ambassadors at the embassy during this period
           appear to have had access to all relevant reporting, and their policy guidance was
           understood by, and followed by, all agency elements present in the embassy. The
           Department, other U.S. agencies, and all elements of the embassy in Caracas,
           appear to have the same understanding of policy, and accepted it as governing their
           activities.

16 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED




               RESPONSE TO QUESTION 4

         “Did opponents of the Chávez government who met with Embassy or Depart-
         ment officials request or seek the support of the U.S. government for actions
         aimed at removing or undermining that government? What was the response of
         Embassy or Department officials to such requests? How were these responses
         conveyed? Orally, or in writing?”

In the many documents reviewed and the many interviews conducted in the course
of this review, we found no evidence that Venezuelan opposition groups or indi-
viduals asked for or otherwise sought from the Department or Embassy Caracas
support for actions aimed at removing or undermining the Chávez government, at
least not through other than democratic and constitutional means. Of course, the
various assistance programs discussed in the answer to Question 5 were strengthen-
ing organizations opposed to President Chávez. But, as explained more fully in the
pages that immediately follow, these programs were consistent with the principles
of democracy and constitutionality.

    However, during the course of a visit to Venezuela in late February, a delega-
tion of Congressional staffers was asked by Venezuelan opposition figures in
several different meetings for U.S. government support for a “post-Chávez transi-
tional government.” In one such meeting, when the question was posed by a
Venezuelan opposition leader to the Congressional staffers, the Venezuelan told
embassy representatives who accompanied the delegation, “Be quiet. We know
what you are going to say!”




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   17 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




18 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED




               RESPONSE TO QUESTION 5

         “Were U.S. assistance programs in Venezuela during the six months prior to the
         weekend of April 12 – either through normal assistance channels or through
         programs funded by the National Endowment for Democracy – carried out in a
         manner consistent with U.S. law and policy?”

SUMMARY

OIG found nothing to indicate that U.S. assistance programs in Venezuela, includ-
ing those funded by NED, were inconsistent with U.S. law and policy. It is clear
that, during the six month period, NED, the Department, and DOD provided
training, institution building, and other support under programs totaling about $3.3
million to Venezuelan organizations and individuals, some of whom are understood
to have been involved in the events of April 12–14. Further, the federal assistance
programs involved numerous contacts between NED, the Department, and DOD
and these organizations and individuals during the six months period. However, we
found no evidence that this support, or those contacts, directly contributed, or were
intended to contribute, to the events of that weekend.

    NED concentrates much of its resources on programs designed to support
democratic organizations operating in countries with semi-authoritarian regimes,
and to ensure that elections in such countries are free and open. This can be
problematic in circumstances such as those existing in Venezuela where a demo-
cratically elected president attempts to thwart democratic institutions. To ensure
that its efforts to foster free elections and support democratic organizations remain
nonpartisan, NED developed election support guidelines in 1989 that define the
types of election assistance it can offer and the kinds of activities that should not
be supported with Endowment funds. These guidelines currently are being revised
to provide even greater clarity on these points to staff and the implementers of
such programs. In addition, the NED Board of Directors has been discussing with
NED and institute staff the broader issue of the need to avoid conduct or specific
activities or statements, even outside of election support, that might reasonably be
interpreted as favoring one party, faction, or coalition over others.




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   19 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED



                NED is required under the National Endowment for Democracy Act3 (the Act)
           to consult with the Department on any overseas program funded by NED prior to
           the commencement of the activities of that program. NED does this by sending
           copies of its Board of Directors-approved program proposals to the Department
           for dissemination to the appropriate bureaus and, in turn, the appropriate embas-
           sies. However, OIG found that Embassy Caracas had not received copies of the
           proposals and had minimal knowledge of NED activities, believing them to be
           “Congress’ responsibility.”4

           The following four subsections each deal with a major provider of federal assis-
           tance: NED, the Department, DOD, and the U.S. Agency for International Devel-
           opment (USAID).

           NED ASSISTANCE TO VENEZUELA

           Under the Act, passed by Congress in 1983, NED’s mission is to strengthen demo-
           cratic values and institutions around the world through non-governmental efforts.
           NED receives an annual grant from the Department and then awards subgrants to
           non-profit organizations in the private sector, including four “core” grantee organi-
           zations representing labor, business, and the two major U.S. political parties, and
           discretionary grantees located in the U.S. and overseas. The core grantees are the
           American Center for International Labor Solidarity (ACILS), the Center for Interna-
           tional Private Enterprise (CIPE), the International Republican Institute (IRI), and
           the National Democratic Institute for International Affairs (NDI).

           The activities supported by NED are guided by the six purposes set forth in NED’s
           Articles of Incorporation and the Act. These purposes are:

                  1. To encourage free and democratic institutions throughout the world through
                     private sector initiatives, including activities which promote the individual
                     rights and freedoms which are essential to the functioning of democratic
                     institutions;

                  2. To facilitate exchanges between U.S. private sector groups and democratic
                     groups abroad;

                  3. To promote U.S. non-governmental participation in democratic training
                     programs and democratic institution building abroad;
           3
               (22 USC 4412)
           4
             Section 503(d) of the Act provides that, “The Endowment and its grantees shall be subject to the ap-
           propriate oversight procedures of the Congress.”


20 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED



    4. To strengthen democratic electoral processes abroad through timely mea-
       sures in cooperation with indigenous democratic forces;

    5. To support the participation of the two major American political parties,
       labor, business, and other U.S. private sector groups in fostering cooperation
       with those abroad dedicated to the cultural values, institutions, and organi-
       zations of democratic pluralism; and

    6. To encourage the establishment and growth of democratic development in
       a manner consistent both with the broad concerns of U.S. national interests
       and with the specific requirements of the democratic groups in other
       countries which are aided by NED-supported programs.

   The Act also requires that NED consult with the Department on any overseas
program funded by NED prior to the commencement of the activities of that
program.

    NED POLICY TOWARD VENEZUELA

    NED’s Venezuela program began in 1993. The program falls under what is
described in NED’s January 2002 strategy document as “Democratizing semi-
authoritarian countries.” The strategy document states that, since semi-
authoritarianism involves shortcomings in so many different sectors, NED should
take full advantage of its ability to work simultaneously in different areas. NED
should strengthen not just civil society and independent media, but also political
parties, business associations, trade unions, and policy institutes that can mediate
between the state and the market and effect real economic reform. NED and
NED grantee funding for programs in, or involving, Venezuela during the six month
period totaled over $2 million. (See Chart 1).

    Under the Act and NED-issued guidelines, NED grantees may not use NED
funding to support the candidacy of any particular candidate. NED currently is
updating election-support guidelines first developed in 1989 in order to provide
more explicit guidance to staff on the fundamental principles underlying its work as
they relate to election efforts; and to emphasize that any ambiguity regarding the
application of the guidelines to a particular set of circumstances not anticipated in
the guidelines should be referred to senior management at the relevant institute and
the NED.

    NED officials stated that they sometimes find themselves “close to the line” in
terms of supporting one candidate over another. They mentioned, for example,


OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   21 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED



           Yugoslavia (“How could we support Milosevic?”) and Belarus, where, just prior to
           the grant, the head of the grantee organization resigned to become the director for
           a year of the campaign office of the united opposition candidate. In non-electoral
           situations, such as assisting Venezuelan democratic institutions, NED tries to
           support programs that further a broad democratic purpose rather than a more
           narrow, partisan one. NED is currently developing broader guidelines for avoiding
           the appearance of partisanship.

                NED PROGRAMS DURING THE REVIEW PERIOD WERE
                CONSISTENT WITH LAW AND POLICY

                OIG found that NED and its grantees developed programs in Venezuela to
           implement a variety of strategies. Those strategies included: 1) assisting in efforts
           to establish more neutral, independent, and effective election administration, and
           assisting civil society organizations and the mass media in monitoring the electoral
           process; 2) working to expand the constitutional, legal, and political “space” for
           civil society, non-governmental organization, and opposition political party devel-
           opment; 3) establishing linkages between civil society and political parties; 4)
           developing practical means with feasible objectives for civil society organizations
           to become more active in democratic processes; and 5) encouraging regional
           assistance in strengthening democratic cooperation and solidarity.

               Based on OIG’s review, NED, its core grantees, and discretionary grant recipi-
           ents were carrying out programs in a manner consistent with NED grant policies
           and guidelines and were adhering to U.S. laws and policies. NED and the core
           grantees have been working with groups in Venezuela since the early 1990s to re-
           democratize and rebuild institutions. They believe that democratic ends can be
           achieved only through democratic means. The core and discretionary grantees
           conducted their programs through seminars, public hearings, training courses,
           national conferences, and regional meetings of civil society groups. Examples of
           NDI, IRI, and ACILS grant projects active during the six month period follow
           (CIPE had no active Venezuelan projects during the period):
           l    The NDI sub-grantee Fundacion Momento de la Gente (Foundation of the
                People’s Moment) project titled “Re-Engaging Citizens in Local-Level
                Politics” had the stated purpose of rebuilding the citizen base for new or
                renewed political parties through increased citizen participation in politics
                (public hearings). NDI and members of the Fundacion Momento de la Gente
                have met with the mayors of Baruta and Naguanagua, Venezuela to imple-
                ment public hearing programs in those two cities. The city of Baruta is the
                pilot city for the program’s activities. An additional component of the pro-


22 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED



    gram is the ongoing initiative to re-establish an extensive network of contacts
    with the business, diplomatic, political, and civil society communities of
    Venezuela. The grant was funded at $20,000.
l   An IRI grant titled “Strengthening Political Parties” was to strengthen Ven-
    ezuelan political parties by encouraging the development of democratic
    structures and practices. The grant for $340,000 funded programs to provide
    tools for political parties to develop: 1) internal structures and processes for
    the transparent and democratic selection of leaders; 2) effective two-way
    communication with the electorate and improve their capacity to represent
    constituent concerns, giving special emphasis to issues of concern to younger
    Venezuelans; and 3) civil society groups and individual citizens that demon-
    strate a willingness to interact with political parties and participate in planned
    activities. The IRI program provides training to five prominent Venezuela
    political parties and over 65 party officials in the subject areas of political
    negotiations, conflict resolution and coalition building. IRI has been offering
    this training to political parties since 1999.
l   An ACILS grant, in the amount of about $150,000 and titled “Support for
    Democratic Union Action,” has the purpose of increasing the Venezuelan
    Workers Confederation’s (CTV) ability, in coalition with other civil society
    organizations, to promote democratic reforms at all levels of government.
    Specifically, the CTV will: 1) organize a national meeting with the private
    sector, unions, and local government authorities to identify common objec-
    tives and areas of cooperation in national development; 2) hold a multi-day
    congress with representatives of the international trade secretariats, U.S.
    unions, and the International Labor Organization to discuss what new form
    the union movement should take; and 3) develop a series of workshops to
    assist the federations in developing their respective transition processes
    according to conclusions discussed at the multi-day congress. The ACILS
    program is ongoing through the end of FY 2002. Workshops and seminars
    conducted to date have emphasized the need for the structural conversion of
    the numerous dispersed unions into unified national industrial unions in order
    to define the role of the union movement in the social, economic, political,
    and cultural development of the nation.
    OIG verified that NED and the core grantees had adequate internal audit and
program evaluation procedures. OIG found that, for each of the 14 grants re-
viewed in detail, financial and program guidelines were followed. OIG observed
that NED, core grantee, and in-country program managers periodically monitor and
evaluate their respective grant programs. Program monitoring and evaluation is
accomplished through activity reports, e-mails, financial statements, and periodic
on-site visits. OIG determined that senior NED and core officials properly vetted

OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   23 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED



           project proposals, and the programs or projects followed the proposal objectives
           without significant change. OIG believes that, for all grants reviewed, the pro-
           grams carried out in Venezuela were consistent with the Act.

                NED CONTACTS WITH OPPOSITION LEADERS

               During the six-month period in question, NED and core officials provided
           training and other support to, and maintained frequent contact with individuals and
           organizations involved in the events of April 12-14. NED and core grantee docu-
           ments, and interviews with NED and core officials, lead to the conclusion that
           these contacts were consistent with the law, policy, and approved programs.

               Of course, such contacts were affected by the deteriorating political situation
           in Venezuela. For example, IRI’s quarterly report covering Venezuela activities
           during the January – April 2002 period stated:

                     In the midst of the rapidly escalating tension in the country over the
                     past few months, IRI’s Venezuela country director continued to
                     meet regularly with all political actors and work to construct a
                     training plan for the upcoming months with the major parties. Most
                     party leaders were focused on the current polarization of the coun-
                     try, increasing ungovernability and intimidation by the Chávez
                     government against civil society groups. … Because of the worsen-
                     ing political crisis in the country, political party leaders were gener-
                     ally not focused on internal training and plans for the future, al-
                     though attempts were continually made to formulate a short term
                     work plan for technical training to address their major weaknesses
                     and prepare them for the challenges ahead.

                In fact, some meetings – e.g., a NED-supported event involving Venezuelan
           civil society groups scheduled for April 10 – had to be cancelled.

               Some of the individuals supported by NED grants also met with officials of the
           Department to explain what was going on in Venezuela. All were clearly and
           consistently told by Department officials that the U.S. would not support removal
           of President Chávez by unconstitutional means. One individual who had received
           training from a NED core grantee stated, by one Department official’s account:
           “I’m not asking for permission. I’m just telling you what will happen.”

                IRI’S APRIL 12 STATEMENT

                On April 12, 2002, IRI’s president, George A. Folsom, issued a public state-

24 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED



ment on the events in Venezuela which appeared to support the unconstitutional
removal of President Chávez (see Appendix 1). The statement generated a sharp
rebuke from NED’s president, Carl Gershman (see Appendix 2). Mr. Gershman
concluded his letter to Mr. Folsom by stating “I realize that there are a number of
complex issues raised when extra-constitutional means are used to further ostensi-
bly democratic ends. These issues warrant a serious discussion within the NED
family.”

Mr. Folsom issued a subsequent release on May 6 (see Appendix 3), stating:

         When IRI released its most recent statement on Venezuela on April
         12, 2002, it was widely reported that the Venezuelan National As-
         sembly planned to meet that day to lay out the steps toward new elec-
         tions and the resumption of constitutional order in the country. In-
         deed, IRI published its statement in response to calls from Venezu-
         elans [IRI-supported parties] asking for international support to re-
         build the country’s fractured political system and restore elected de-
         mocracy. IRI’s statement was not an endorsement of extra-constitu-
         tional measures to forcibly remove an elected President, and IRI never
         contemplated the notion that the will of the Venezuelan people would
         be circumvented by extra-constitutional measures, such as the closure
         of the National Assembly and the Supreme Court.

Based on its review, OIG has no reason to believe that, despite its controversial
statement, IRI played any role in removing President Chávez or that the statement
was intended as an endorsement of unconstitutional actions to remove him.

DEPARTMENT OF STATE RESPONSIBILITY FOR
NED PROGRAMS

In a March 1997 audit report on NED, the then United States Information Agency
(USIA) Inspector General reported that USIA had not been disseminating to
overseas posts any program information provided by NED. The USIA official
responsible for NED program information said that he did not plan to distribute
the documents since USIA had no meaningful input into NED’s programs. The
USIA Inspector General recommended that the then Director of USIA clarify
USIA’s responsibilities for NED programs.

    In response to the USIA Inspector General’s recommendation, USIA made its
Office of Strategic Communications (D/C) the coordinating point for the USIA’s
dealings with NED. Specifically, D/C was to forward NED program information


OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   25 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED



           to the appropriate area offices for dissemination to the field. Following the consoli-
           dation of USIA with the Department, NED program proposals were received by
           the Departments Bureau of Educational and Cultural Affairs (ECA) for appropri-
           ate dissemination. While these program proposals have been received and for-
           warded to WHA, the bureau responsible for Venezuela, OIG found that Embassy
           Caracas never received the proposals and had minimal knowledge of NED activi-
           ties.

                OTHER DEPARTMENT ASSISTANCE PROGRAMS

               OIG also reviewed direct funding to Venezuela by Department bureaus, identi-
           fying six bureaus that provided $695,300 in funding during the six-month period
           under review. (See Chart 2). That assistance included grants to an international
           school in Caracas, and funding for academic exchange visitors, international visitor
           exchanges, speakers programs, and international narcotics and law enforcement
           projects.

               OIGs review of documentation and interviews with bureau officials indicate
           that the programs sponsored by the six bureaus providing direct assistance during
           our review period reflect the continued U.S. encouragement for a strong democracy
           in Venezuelan politics, government operations, and civic organizations and leader-
           ship. An example of that commitment is the over 30 Venezuelan officials who
           have participated in ECAs International Visitors Program initiatives during our
           review period. Those visitors represented a cross-section of Venezuelan demo-
           cratic institutions including judges, human rights officials, senior members of
           political action foundations, local government officials, and other influential
           individuals including public prosecutors, academics, anti-drug researchers, and
           bankers.

              In addition, the Bureau of Democracy, Human Rights, and Labor plans to grant
           NED $1 million to expand NED programs in Venezuela. The proposed grant is on
           hold, pending the results of this OIG review.

             Based on OIGs review of related program documents and our interviews with
           Department officials in each of the relevant bureaus, U.S. funding for Venezuela
           appeared to have been in accordance with U.S. policy.

           MILITARY ASSISTANCE PROGRAMS

           DOD-provided security assistance funding to Venezuela for FY 2002 totaled about
           $700,000, almost all of which was attributable to 121 students attending courses in
           the United States under the International Military Education and Training Program.

26 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002      July 2002


                                           UNCLASSIFIED
                                        UNCLASSIFIED


(See Chart 3). DOD also participated with the Venezuelans in military-to-military
contacts, visits by Venezuelan military personnel to the United States and other
countries, and combined training and exercises. In addition, the United States
consummated foreign military sales to Venezuela valued at $697 million. These
activities were authorized under the Arms Export Control Act5 (AECA) and are
under the control of USSOUTHCOM. The AECA permits defense services to be
sold or leased by the United States to friendly countries solely for internal security,
legitimate self-defense, and certain other enumerated purposes. Planning and
execution of the assistance program in Venezuela is the responsibility of the U.S.
Military Group (MILGRP) assigned to Embassy Caracas. The MILGRP com-
mander is responsible for developing an annual plan that integrates
USSOUTHCOMs strategic plan, the Venezuelan militarys desires, and the
ambassadors MPP.

USAID ASSISTANCE PROGRAMS

USAID assistance programs in Venezuela have been minimal. However, in March
2002, an assessment team from USAIDs Office of Transition Initiatives (OTI)
visited Venezuela at the request of the then U.S. ambassador and the Departments
Office of Andean Affairs. The purpose of the assessment was to survey the
current political-social environment in Venezuela and to identify further potential
program opportunities for the United States to support democratic processes,
institutions and those elements of civil society that underpin Venezuelas demo-
cratic traditions. The OTI team spent two weeks in Venezuela meeting with
interlocutors from the government, the business sector, the media, non-governmen-
tal organizations, and the Roman Catholic Church.

    The OTI team noted in its report that The policy of the USG has been to
support the establishment of, and respect for, democratically elected governments.
In applying this to Venezuela, consideration must be given to the actions of a
democratically elected leader who demonstrates disrespect for, and seeks to de-
stroy, essential democratic structures. The OTI team identified a number of
moderate Venezuelan institutions and leaders who were committed to constitu-
tional reconciliation and whose programs were thought to merit support. The OTI
team stated in its report that The ongoing NED grants to NDI, IRI, and ACILS are
good examples of such programs, and they should be expanded to the extent that
absorptive capacity permits. As a result of its assessment, OTI proposed the
establishment of a flexible, quick-disbursing $1 million small grants fund, able to
respond to the rapidly evolving political situation in Venezuela. OTI expects the
fund to be operational in August, 2002.
5
    (22 USC, Chapter 39, subchapter I, Section 2754)


OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002      July 2002   27 .

                                        UNCLASSIFIED
                                           UNCLASSIFIED




28 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   29 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED



                                                         Chart 3




30 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED
                                                                                    APPENDIX 1




              IRI President Folsom Praises Venezuelan Civil Society’s Defense of Democracy

                                       Statement by George A. Folsom
                              President of the International Republican Institute
                                               Washington, D.C.

                                                 April 12, 2002

George A. Folsom, President of the International Republican Institute (1RI) praised the Venezuelan people in
their efforts to bring democracy to the country. The following is a statement from President Folsom
concerning last night’s events.

“Last night, led by every sector of civil society, the Venezuelan people rose up to defend democracy in their
country. Venezuelans were provoked into action as a result of systematic repression by the Government of
Hugo Chavez. Several hundred thousand people filled the streets of Caracas to demand the resignation of
Lt. Col. Chavez, who responded with sharpshooters and his para-military Bolivarian circles killing more
than 12 civilians and wounding more than 100 others. In contrast, IRI commends the patriotism of the
Venezuelan military for their refusal to fire on their countrymen.

“IRI also applauds the bravery of civil society leaders - members of the media, the Church, the nation’s
educators and school administrators, political party leaders, labor unions, and the business sector - who
have put their very lives on the line in their struggle to restore genuine democracy to their country. IRI will
remain engaged for the long term with political parties and our civil society partners to help rebuild
Venezuela’s fractured political system and restore elected democracy to the country.

“IRI has promoted the strengthening of democracy in Venezuela since 1994, and recognizes that Venezuela’s
future is not a return to its pre-Chavez past but instead the development of accountable, non- corrupt, and
responsive government.

“Today the National Assembly is expected to meet to lay the groundwork for the transitional government to
hold elections later this year. The Institute has served as a bridge between the nation’s political parties and
all civil society groups to help Venezuelans forge a new democratic future, based on accountability, rule of
law and sound democratic institutions. We stand ready to continue our partnership with the courageous
Venezuelan people.”

IRI is a nonprofit organization dedicated to advancing democracy worldwide. IRI’s programs span the
globe and include training on civic responsibility and the legislative process and strategies for building
political parties and election campaigns. IRI is a nonpartisan organization, federally funded through the
National Endowment for Democracy (NED) and the U.S. Agency for International Development (USAID),
as well as privately funded by donations from individuals, corporations and foundations.

For further information, please contact Steven Susens, IRI Press Secretary, (202) 572-1559 or
ssusens@iri.org

OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   31 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED
                                                                                                 APPENDIX 2




           Mr. George Folsom
           President
           International Republican Institute
           1225 Eye Street, NW
           Suite 700
           Washington, DC 20005

           Fax:      (202) 408-9462

           Dear George:

                       I was greatly disturbed to read the statement you issued on Friday welcoming the removal
           from office of Venezuelan President Hugo Chavez. Like so many others in Venezuela and in the
           hemisphere, we have been deeply concerned about the consequences for Venezuelan democracy of
           President Chavez’ arbitrary and polarizing style of rule. Nonetheless, his removal through
           unconstitutional means was understandably seen by many democrats in the hemisphere and beyond
           as itself a blow to democracy in Venezuela. By welcoming it – indeed, without any apparent reservations
           – you unnecessarily interjected IRI into the sensitive internal politics of Venezuela. A statement was
           not called for or expected; and it was also counter-productive, since it will only make it more difficult
           for the IRI to work in Venezuela and the region as a whole. I particularly object to you mentioning NED
           in the release. We were not consulted, and I regret any association with your remarks.

                    I realize that there are a number of complex issues raised when extra-constitutional means are
           used to further ostensibly democratic ends. These issues warrant a serious discussion within the
           NED family. I will let you know when that discussion is scheduled to take place.




32 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED


                                                                                     APPENDIX 3




When IRI released its most recent statement on Venezuela on April 12, 2002, it was
widely reported that the Venezuelan National Assembly planned to meet that day to lay
out the steps toward new elections and the resumption of constitutional order in the
country. Indeed, IR1 published its statement in response to calls from Venezuelans asking
for international support to rebuild the country’s fractured political system and restore
elected democracy. IRI’s statement was not an endorsement of extra-constitutional
measures to forcibly remove an elected President, and IRI never contemplated the notion
that the will of the Venezuelan people would be circumvented by extra-constitutional
measures, such as the closure of the National Assembly and the Supreme Court.

After two weeks of monitoring the unstable environment, IRI believes now more than
ever that the ability of Venezuelans to move ahead peacefully in the coming weeks will
rely heavily on efforts toward a genuine national reconciliation. In this respect, the
importance the government places on democratic values and rule of law is crucial
Attempts at national reconciliation also provide an unprecedented opportunity for the
leaders of Venezuela’s political parties to re-engage the government on issues of critical
importance for the country, helping to ease Venezuelans onto the path of national dialogue,
healing and the search for compromise.

IRI has worked in Venezuela since 1994 with a broad array of civil society groups and
political parties. IRI has had no sub-grantees in Venezuela since 2000 but continues
working with the country’s political party leadership, providing training in such technical
areas as political negotiation, conflict resolution, crisis management, political
communications, and coalition building. As it does in many countries throughout the world,
IRI will work with Venezuelan political parties to help forge a new democratic future,
based on accountability, rule of law and sound democratic institutions.




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   33 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




34 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED




       MISCELLANEOUS ISSUES RAISED BY THE NEWS
        MEDIA IN VENEZUELA OR THE UNITED STATES


During the course of our review, we examined a number of issues relating to actual
or alleged military activity which have drawn public attention.

    The first issue was the Venezuelan assertion that members of the U.S. Defense
Attaché Office (USDAO) of the embassy were in Fuerte Tiuna, the Venezuelan
military headquarters, advising members of the opposition during the weekend in
question. Specifically, the claim was made that members of the USDAO were
present in the room in which President Chávez was held and they remained there
throughout his confinement. Their alleged presence was taken as sign by President
Chávezs military opponents of U.S. support for his overthrow.

    OIG learned that the USDAO does not have offices at Fuerte Tiuna, but the
MILGRP does. The Defense Attaché and the Army Attaché regularly visit Fuerte
Tiuna to meet with their counterparts in the Venezuelan Ministry of Defense. The
MILGRP members left Fuerte Tiuna and their liaison offices in other Venezuelan
military units during the afternoon of April 11 as events escalated. On April 13 two
members of the USDAO visited Fuerte Tiuna to meet with their counterparts. At
no time did they see President Chávez. Members of the MILGRP visited their
places of duty infrequently during the course of events, again only to ascertain
what was happening and who was in charge. There was never any attempt to
advise, support, or otherwise cooperate with, members of the opposition.

    The second issue was the Venezuelan assertion that the United States had naval
vessels and helicopters operating near the island of Orchila where President
Chávez was taken. The embassy had actively sought to determine the accuracy of
that assertion, working closely with USSOUTHCOM. The embassy determined
and USSOUTHCOM verified that there were two U.S. Coast Guard cutters operat-
ing with a Dutch cutter more than 100 miles from Orchila Island in a combined
counter-drug exercise. The Dutch cutter did have a helicopter with it and the
helicopter was airborne. The Venezuelans apparently knew in advance about this
exercise; the Venezuelan Coast Guard had participated in a similar counter-drug
exercise with the U.S. Coast Guard during the six months prior to the April events.
That exercise, OP VENUS, was a resumption of similar exercises in which Ven-
ezuela had participated, until terminating them in the late 1990s.

OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002      July 2002   35 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED



                The third issue was the Venezuelan report of a U.S.-registered aircraft on the
           tarmac of the Orchila Island airport during the time when President Chávez was
           waiting in another aircraft to be flown into exile. The Venezuelan Navy asked the
           MILGRP to identify the aircraft. The MILGRP, using the Federal Aviation Admin-
           istration (FAA) website, found the identity of an aircraft corresponding to the tail
           number given by the Venezuelan Navy. However, the number, which was that of a
           Stinson aircraft manufactured in 1942, did not match the aircraft at Orchila Island.
           OIG, using the same FAA website, has independently confirmed the accuracy of
           the MILGRP report. While there was a media report that the aircraft belonged to a
           prominent Venezuelan businessman, and the embassy had another report indicating
           that the aircraft belonged to another Venezuelan businessman, available public
           domain FAA databases do not indicate that either owns a U.S.-registered aircraft.
           According to the MILGRP, the first businessman denied in the Venezuelan media
           that the aircraft was his.

               OIG determined that a long-planned counter-drug exercise with the Venezu-
           elan National Guard and the Venezuelan Army with U.S. Army units had been
           cancelled by the embassy in coordination with the Department and
           USSOUTHCOM. The exercise had been scheduled to start with the arrival of U.S.
           participants on April 11, 2002, with its transport aircraft, a C-17, remaining in
           Caracas overnight and continuing its mission on April 12. If the exercise had taken
           place, it might have appeared that the U.S. had played an active role in the ouster
           of President Chávez. Instead, the aircraft delivering the U.S. units was diverted to
           Puerto Rico where the U.S. units left the aircraft. On April 15, the exercise was
           canceled and the units returned to their home stations. The Ministry of Defense
           and the MILGRP have undertaken to reschedule those exercises for FY 2003.

               Finally, there was a passing reference to the presence of the USS George
           Washington near the coast of Venezuela during the week of April 11-14. This
           aircraft carrier and its attendant battle group were exercising in an area known as
           the Southern Puerto Rico Area of Operations. This area is located several
           hundred miles from Venezuelan waters. The battle group was conducting normal
           preparatory exercises prior to its upcoming overseas deployment.

               During the mid-April events, the embassy received a request for non-lethal
           police equipment (rubber bullets and tear gas) to help control rioting during the
           weekend of April 13 - 14. The ambassador referred this request to the MILGRP as
           a security assistance issue. The DAO was aware of the request, but took no action
           because the MILGRP was the responsible office. The MILGRP took no action on
           the request.



36 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002      July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED



     During the same period, the embassy received a number of requests for asylum.
The embassys Emergency Action Committee (EAC) operated continuously during
the period and was in constant telephone contact with many of the U.S. citizens in
Caracas who were concerned for their safety and sought advice about coming to the
embassy. The EAC counseled them with the latest available information and
advised that it was safer to remain in their homes than to try to travel across the
disturbed areas and reach the embassy compound. A Venezuelan National Guard
officer who was wounded came to the embassy and requested asylum. He was
provided with first aid and told that the embassy could not grant his request. He
left without incident.

   One Venezuelan family, known to the embassy, sought refuge in the mission on
Monday, April 15. After several hours of discussions with an embassy officer and
among themselves, the family left and returned safely to their home.




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002      July 2002   37 .

                                      UNCLASSIFIED
                                      UNCLASSIFIED




                                    CONCLUSION

OIG finds nothing to indicate that the Department or Embassy Caracas planned,
participated in, aided, or encouraged the brief ouster of Venezuelan President
Hugo Chávez in April. The record shows that the Department and the embassy
consistently discouraged the overthrow of that democratically elected regime. Our
government’s opposition to the use of undemocratic or unconstitutional means to
remove President Chávez was repeated over and over again during the relevant
period by key policymakers and spokespersons in Washington and by our represen-
tatives in Caracas in both public and private forums. And, far from working to
foment his overthrow, the United States alerted President Chávez to coup plots and
warned him of an assassination threat that was deemed to be credible.

    Similarly, OIG found that U.S. assistance programs in Venezuela, including
those of NED, were consistent with U.S. laws. While it is clear that NED’s,
DOD’s, and other U.S. assistance programs provided training, institution building,
and other support to organizations and individuals understood to be actively
involved in the events of April 11-14, we found no evidence that this support
directly contributed, or was intended to contribute, to those events. NED is,
however, mindful of the fact that, in some circumstances, its efforts to assist
specific organizations, or foster open elections, could be perceived as partisan.
NED has issued guidelines on how its funds can be used in supporting free elec-
tions, and it is developing overall guidelines on the subject of partisanship.

    Also, NED is required under its regulations to consult with the Department on
any overseas program funded by NED prior to the commencement of the activities
of that program. NED does this by sending copies of its board-approved program
proposals to the Department; however, Embassy Caracas had minimal knowledge
of NED activities in Venezuela during the period under review.

     While the Department and Embassy Caracas played no role in his overthrow,
the U.S. government’s displeasure with certain of President’s Chávez’s policies,
actions, and relationships was well known by his opponents in Caracas. According
to the documentary record and press reports, among those irritants were: (1) Presi-
dent Chávez’s embrace of anti-American governments in Cuba, Iraq, Iran, and
Libya; (2) his lack of support for the war on terrorism; (3) his reported ties to the
leftist FARC guerrillas in Colombia; (4) his involvement in the affairs of the Ven-


OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   37 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




38 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED



ezuelan oil company and the potential impact of that on oil prices; and (5) his
various internal anti-democratic moves. It is certainly possible, then, that at least
some of those who helped to remove President Chávez did so reckoning that
Washington would shed no tears over his ouster.

    Furthermore, the weight of embassy contacts fell heavily on the side of the
opposition. Aside from meetings with the President himself and key ministers,
there appears to have been limited outreach to others, inside and outside govern-
ment, who supported President Chávez. And, the topics reported on and the tenor
of those reports so disfavored President Chávez that even our ambassador at the
time was moved to worry that Washington was getting a picture of the Venezuelan
political scene that underestimated President Chávez’s popular support. (As noted
above, the importance of broadening the range of contacts has been recognized by
the embassy, and efforts have been undertaken to accomplish that goal.)

    It can be argued that the very fact that the United States regularly and repeat-
edly met with those interested in ousting the Chávez government and heard them
out may in and of itself have been seen as lending support to their efforts, notwith-
standing our ritualistic denunciations of undemocratic and unconstitutional means.
On the other hand, the mission would have been derelict in its duty to provide
Washington with accurate, timely, and highly relevant information if it had not
availed itself of such opportunities to learn of plots and plans against the host
government from the plotters and planners themselves.

    Embassy Caracas was aware of and sensitive to this tension between the need
to get close enough to the Venezuelan political stage to hear and see what was
going on without getting so close as to become an actor itself. On at least one
occasion, an element of the mission felt that further meetings with a particular
group would, indeed, be read as tacit U.S. support and recommended to the then
ambassador that contact be cut off. The ambassador readily agreed.

    Some opposition figures reportedly believed that the manner of Chávez’s ouster
was consistent with the Venezuelan constitution and, therefore, with democratic
processes. Though the United States invariably discouraged or dismissed the
notion when raised by Venezuelan interlocutors, Article 350 of their constitution
was taken by some Venezuelans to authorize regime change based on a “people
power-type” popular uprising similar to that which occurred on April 11.

    There were also those in the opposition who argued that Chávez himself was
undemocratic and, so, overthrowing him was the only way to restore democracy.
Far from being an obstacle to action against Chávez, then, those leaders may,



OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   39 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED



           ironically, have taken the standard pro-democracy U.S. policy statement to be a call
           for action against him.

               Washington policymakers and embassy officials only occasionally spelled out
           the consequences of a failure to take the United States at its word that we were
           opposed to the use of undemocratic and unconstitutional means to oust Chávez.
           On relatively few occasions, apparently, did American interlocutors threaten non-
           recognition, bilateral and OAS sanctions, and other punitive measures.

               Finally, our policy toward Venezuela was, necessarily, viewed in historical
           context. In Venezuelan eyes, the circumstances of recent regime changes in the
           region were murky and yet the United States quickly embraced the new govern-
           ments. And, our record in the region a generation ago may have led some Venezu-
           elans to conclude that our present profession of support for only democratic means
           of changing unfriendly governments in Latin America is hollow. Even our ambas-
           sador and others in Embassy Caracas themselves expressed doubts occasionally as
           to whether they were really believed when they repeatedly stressed U.S. opposition
           to undemocratic and unconstitutional moves against President Chávez.

               Adding all of this together, it is not hard to see how the Department and
           Embassy Caracas could have said and done all that they reasonably could have said
           or done and still not have said and done enough to prevent what happened over the
           weekend of April 12-14. It appears, then, that the Spanish proverb, “a veces una
           cosa ves, y otra es,” (sometimes things look one way, but they are really another)
           applies to the United States’ perception of Chávez opponents and their perceptions
           of the United States in the six months before the weekend in question. Where
           Americans saw in our stock policy statement a “red light” against undemocratic,
           unconstitutional moves, at least some Venezuelans may have seen only a yellow
           one.

               With regard to the criticism that the United States was too slow to decry
           Chávez’s ouster and too quick to deal with the provisional government, it is easier
           to make that judgment in hindsight. And, even in hindsight, considering what was
           known at the time, it is unfair to judge the Department and Embassy Caracas all
           that harshly.

               According to reports that have yet to be definitively refuted, at least some pro-
           Chávez elements had fired on a massive crowd of peaceful anti-Chávez demonstra-
           tors, killing some and wounding many others. The government had attempted to
           block independent media coverage of these events. In the wee hours of the next
           morning, April 12, the highest-ranking military officer in the country (who was



40 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED



known to be a close Chávez confidant) had gone on television to announce that
President Chávez had resigned. The embassy subsequently received information
from a highly credible source corroborating the resignation. It was understood that
prior to resigning Chávez had fired his vice president and cabinet, leaving no
constitutionally designated successor and no clear constitutional means of selecting
one.

    Far from being overly eager to accept as fact reports of President Chávez’s
resignation, the Department insisted that the embassy try to find a copy of the
resignation document. About this time, President Chávez’s attorney general an-
nounced to the press that President Chávez had not resigned, further confusing the
situation. Eventually, a document purporting to effect both President Chávez’s
resignation and the dismissal of his cabinet (see Attachment 3) was sent to the
embassy and then sent by the embassy to Washington. But, the document was
unsigned, and Washington, still unsatisfied, continued to press the mission to try to
find a signed one.

    Meanwhile, on the ground in Caracas, the question of the manner of President
Chávez’s exit was becoming more and more academic. A senior member of Presi-
dent Chávez’s government was reporting through OAS channels that Chávez was
gone for good. Our ambassador learned from several other U.S. ambassadors in the
region that the governments to which they were accredited were inclined to accept
the legitimacy of the Carmona government.

     And, while it is true, as critics of the United States’ handling of these events
have stressed, that the Río Group (a group of Latin American and Caribbean
countries) invoked the IADC and condemned President Chávez’s ouster as uncon-
stitutional (see Attachment 4) a day before the U.S. mission to the OAS’ statement
to that effect (see Attachment 5), a number of factors should be kept in mind.

    First, the Río Group coincidentally was meeting that very weekend, facilitating
the timely issuance of a group statement. Second and more importantly, according
to the OAS Secretary-General in the report on these events (see Attachment 6) that
he subsequently prepared pursuant to the IADC, “It should be noted that the Río
Group considered President Chávez’s resignation a fait accompli, along with the
removal of the vice president and cabinet. Consequently, no request was made (by
the Río Group) for (President Chávez’s) return to power as part of the necessary
actions to defend constitutional order.”

    So, even the Río Group quickly turned its attention away from the circum-
stances of Chávez’s ouster to dealing with the Carmona government, and working



OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   41 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED



           to ensure that it returned Venezuela to a constitutional and democratic path as
           quickly as possible, including calling for new elections. This also was the approach
           of the Department and the embassy.

               From its beginning to its end shortly thereafter, the provisional government of
           businessman Pedro Carmona was urged by the United States to restore constitu-
           tional order and to follow democratic norms. Noting President Chávez’s reported
           resignation in the early hours of April 12 and the apparent absence of a constitu-
           tional successor, a Department spokesman emphasized in a statement issued in
           Washington a few hours later (see Attachment 7) that “…the essential elements of
           democracy, which have been weakened in recent months, must be restored fully.”
           Additionally that day, Ambassador Shapiro issued a statement from Embassy
           Caracas to the same effect (see Attachment 8), and the United States issued a joint
           statement with Spain (see Attachment 9) calling for “democratic normalization”
           and “the consolidation of a stable democratic framework.”

               And, though, the United States worked with the provisional government in an
           effort to restore democracy and constitutionality, the United States hardly em-
           braced Carmona. Throughout the Carmona regime’s brief tenure, the U.S. govern-
           ment kept some distance from it. For example, with the concurrence of Washing-
           ton, Ambassador Shapiro resolved, if invited, not to attend Carmona’s inaugura-
           tion, and when asked by a Venezuelan military opposition leader to facilitate
           President Chávez’s departure from the country, the ambassador declined.

               When word reached the embassy of Carmona’s plans to dissolve the National
           Assembly and the Supreme Court, Washington instructed our ambassador to call
           Carmona and urge him to preserve democracy and follow constitutional processes.
           Specifically in that call, the ambassador warned Carmona that dissolving the
           National Assembly and Supreme Court would be unconstitutional and therefore
           unacceptable to the United States, the OAS, and the world community. Carmona
           was advised to be sworn in by a Supreme Court Justice and confirmed by the
           National Assembly. The same message was conveyed to the Venezuelan mission in
           Washington and to influential Venezuelan private citizens through informal chan-
           nels. The United States also made a point of calling for early elections. Though,
           later that day, Carmona did, indeed, call for elections in a year, he ignored the rest
           of the U.S.’ advice, dissolving both the National Assembly and the Supreme Court,
           and swearing himself into office.

               On Washington’s instructions, our ambassador urgently sought a face to face
           meeting with Carmona, teaming up with his Spanish counterpart to tell Carmona
           when they met the next morning that dissolving the legislative and judicial branches
           of the federal government had been a grave mistake and to urge him to reverse

42 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED



course. Our ambassador to the OAS made a speech to his colleagues a few hours
later that day (April 13) challenging the legitimacy of the Carmona government and
urging a meeting under the auspices of the IADC. Carmona duly reversed course
later in the day, announcing the reconvening of the National Assembly, but by then
pro-Chávez forces were already setting in motion the chain of events that would
lead to President Chávez’s restoration to power in the early morning hours of April
14.

     In retrospect, the Department could, perhaps, be criticized for not buttressing
its vigorous behind the scenes OAS diplomacy with a swift unilateral statement
decrying Carmona’s dissolution of the National Assembly and Supreme Court and
other undemocratic moves. But, events unfolded so quickly that weekend that by
Monday morning President Chávez was back in power.

     Furthermore, having been criticized harshly as having a unilateralist approach
to foreign policy throughout the world, having been accused of a history of
unilateralism in Latin America in particular, and having gone to great lengths just
months earlier to join our regional partners in crafting a mechanism to deal with
this very kind of threat to democracy (Secretary Powell stayed on in Lima with his
OAS colleagues on September 11, 2001, long enough to sign the IADC), the United
States was especially keen to avail itself of the good offices of the OAS and to use
the newly-minted IADC to deal with the first hemispheric crisis to come along after
its signing.

    In our judgment, then, the Department and Embassy Caracas worked diligently
to promote democracy and constitutionality throughout the period in question.
They promptly and strongly condemned what they understood to be the undemo-
cratic acts of the Chávez regime, and they promptly and strongly condemned the
undemocratic acts of the Carmona regime.

    In the months leading up to that fateful April weekend, the United States had
taken issue with President Chávez and certain of his policies, to be sure. Conse-
quently, when he was ousted and restored to power some 48 hours later, the United
States was neither particularly sorry to see him go nor particularly happy to see him
come back. OIG, however, finds no evidence that the Department of State or
Embassy Caracas played any role in President Chávez’s brief overthrow.




                   LIST OF ABBREVIATIONS

OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   43 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED



           A                              Bureau of Administration
           A/S                            Assistant Secretary
           ACILS                          American Center for International Labor Solidarity
           AD                             Acción Democrática (Venezuelan Political Party)
           AECA                           Arms Export Control Act
           CA/OCS                         Bureau of Consular Affairs/Office of Overseas
                                          Citizens Services
           CEVEU                          Business Council of Venezuela-U.S.
           CIPE                           Center for International Private Enterprise
           CNN                            Cable News Network
           CONSINDUSTRIA                  The Industrial Chamber of Commerce
           CSIS                           Center for Strategic and International Studies
           CTV                            Venezuelan Workers Confederation
           D/C                            Office of Strategic Communications
           DAO                            Defense Attaché Office
           DCM                            Deputy Chief of Mission
           Department                     Department of State
           DIA                            Defense Intelligence Agency
           DISIP                          Venezuelan National Security Police & Civilian
                                          Intelligence Service
           DOD                            Department of Defense
           EAC                            Emergency Action Committee
           ECA                            Bureau of Education and Cultural Affairs
           ELN                            National Liberation Army
           FAA                            Federal Aviation Administration
           FARC                           Revolutionary Armed Forces of Colombia
           FEDECAMARAS                    The National Federation of Chambers of Commerce
           FY                             Fiscal Year




44 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED



IADC                          Inter-American Democratic Charter
IIP                           International Information Programs
INL                           Bureau of International Narcotics and Law
                              Enforcement Affairs
INR                           Bureau of Intelligence and Research
IPYS                          Instituto de Prenso y Sociedad
IRI                           International Republican Institute
L/WHA                         Office of the Legal Adviser for Western Hemisphere
                              Affairs
MAS-más                       Movimiento Al Socialismo (political party)
MILGRP                        Military Group
MPP                           Mission Performance Plan
MVR                           Fifth Republic Movement (President Chávez’s political
                              party)
NDI                           National Democratic Institute for International Affairs
NED                           National Endowment for Democracy
NGO                           Non-governmental organization
NSC                           National Security Council
OAS                           Organization of American States
OIG                           Office of Inspector General
OTI                           Office of Transition Initiatives
PA                            Bureau of Public Affairs
PCC                           Policy Coordination Committee
PDVSA                         Petroleos de Venezuela, S.A, Venezuela’s state-owned
                              oil company
PRODEL                        Procesos Democráticos Latino Americano
PPT                           Patria Para Todos (political party)
S/S-O                         Office of the Secretary/Operations Center
USAID                         United States Agency for International Development
USIA                           United States Information Agency



OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   45 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED



           USOAS                          United States Mission to the Organization of
                                          American States
           USSOUTHCOM                     United States Southern Command
           WHA                            Bureau of Western Hemisphere Affairs
           WHA/AND                        Bureau of Western Hemisphere Affairs/Office of
                                          Andean Affairs
           WHA/DAS                        Bureau of Western Hemisphere Affairs/Deputy
                                          Assistant Secretary




46 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   47 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




           ATTACHMENT 11



           PHOTOGRAPHS OF CARACAS DEMONSTRATION, APRIL 11, 2002



           (TO BE SCANNED AND ADDED)



           1
            Ambassador Donna J. Hrinak assumed charge of our embassy in Venezuela on
           August

           14, 2000, and left Venezuela on February 27, 2002.




48 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED

                                                                                  ATTACHMENT 1

       Letter of the Honorable Christopher J. Dodd, Chairman of the Senate
  Subcommittee on Western Hemisphere, Peace Corps and Narcotics Affairs, sent
           to the Department of State Inspector General on May 3, 2002




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   49 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




50 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED
                                                                                   ATTACHMENT 2

                            The Inter-American Democratic Charter

Lima, September 11, 2001

                     INTER-AMERICAN DEMOCRATIC CHARTER

THE GENERAL ASSEMBLY,

CONSIDERING that the Charter of the Organization of American States recognizes
that representative democracy is indispensable for the stability, peace, and
development of the region, and that one of the purposes of the OAS is to promote
and consolidate representative democracy, with due respect for the principle of
nonintervention;

RECOGNIZING the contributions of the OAS and other regional and sub-regional
mechanisms to the, promotion and consolidation of democracy in the Americas;

RECALLING that the Heads of State and Government of the Americas, gathered at
the Third Summit of the Americas, held from April 20 to 22, 2001 in Quebec City,
adopted a democracy clause which establishes that any unconstitutional alteration
or interruption of the democratic order in a state of the Hemisphere constitutes an
insurmountable obstacle to the participation of that state’s government in the Summits
of the Americas process;

BEARING IN MIND that existing democratic provisions in regional and subregional
mechanisms express the same objectives as the democracy clause adopted by
the Heads of State and Government in Quebec City;

REAFFIRMING that the participatory nature of democracy in our countries in different
aspects of public life contributes to the consolidation of democratic values and to
freedom and solidarity in the Hemisphere;

CONSIDERING that solidarity among and cooperation between American states
require the political organization of those states based on the effective exercise of
representative democracy, and that economic growth and social development based
on justice and equity, and democracy are interdependent and mutually reinforcing;

REAFFIRMING that the fight against poverty, and especially the elimination of extreme
poverty, is essential to the promotion and consolidation of democracy and constitutes
a common and shared responsibility of the American states;

BEARING IN MIND that the American Declaration on the Rights and Duties of Man
and the American Convention on Human Rights contain the values and principles of
liberty, equality, and social justice that are intrinsic to democracy;

REAFFIRMING that the promotion and protection of human rights is a basic
prerequisite for the existence of a democratic society, and recognizing the importance
of the continuous development and strengthening of the inter-American human rights
system for the consolidation of democracy;

CONSIDERING that education is an effective way to promote citizens’ awareness
concerning their own countries and thereby achieve meaningful participation in the



OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   51 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED


           decision-making process, and reaffirming the importance of human resource
           development for a sound democratic system;

           RECOGNIZING that a safe environment is essential to the integral development of
           the human being, which contributes to democracy and political stability;

           BEARING IN MIND that the Protocol of San Salvador on Economic, Social, and
           Cultural Rights emphasizes the great importance of the reaffirmation, development,
           improvement, and protection of those rights in order to consolidate the system of
           representative democratic government;

           RECOGNIZING that the right of workers to associate themselves freely for the defense
           and promotion of their interests is fundamental to the fulfillment of democratic ideals;
           TAKING INTO ACCOUNT that, in the Santiago Commitment to Democracy and the
           Renewal of the Inter-American System, the ministers of foreign affairs expressed
           their determination to adopt a series of effective, timely, and expeditious procedures
           to ensure the promotion and defense of representative democracy, with due respect
           for the principle of nonintervention; and that resolution AG/RES. 1080 (XXI-0/91)
           therefore established a mechanism for collective action in the case of a sudden or
           irregular interruption of the democratic political institutional process or of the legitimate
           exercise of power by the democratically-elected government in any of the
           Organization’s member states, thereby fulfilling a long-standing aspiration of the
           Hemisphere to be able to respond rapidly and collectively in defense of democracy;

           RECALLING that, in the Declaration of Nassau [AG/DEC. 1 (XXII-0/92)], it was agreed
           to develop mechanisms to provide assistance, when requested by a member state,
           to promote, preserve, and strengthen representative democracy, in order to
           complement and give effect to the provisions of resolution AG/RES. 1080 (XXI- 0/
           91);
           BEARING IN MIND that, in the Declaration of Managua for the Promotion of
           Democracy and Development [AG/DEC. 4 (XXIII-0/93)], the member states expressed
           their firm belief that democracy, peace, and development are inseparable and
           indivisible parts of a renewed and integral vision of solidarity in the Americas; and
           that the ability of the Organization to help preserve and strengthen democratic
           structures in the region will depend on the implementation of a strategy based on the
           interdependence and complementarity of those values;
           CONSIDERING that, in the Declaration of Managua for the Promotion of Democracy
           and Development, the member states expressed their conviction that the
           Organization’s mission is not limited to the defense of democracy wherever its
           fundamental values and principles have collapsed, but also calls for ongoing and
           creative work to consolidate democracy as well as a continuing effort to prevent and
           anticipate the very causes of the problems that affect the democratic system of
           government;

           BEARING IN MIND that the Ministers of Foreign Affairs of the Americas, at the thirty-
           first regular session of the General Assembly, held in San Jose, Costa Rica, in keeping
           with express instructions from the Heads of State and Government gathered at the
           Third Summit of the Americas, in Quebec City, accepted the base document of the
           Inter-American Democratic Charter and entrusted the Permanent Council of the



52 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED


Organization with strengthening and expanding the document, in accordance with
the OAS Charter, for final adoption at a special session of the General Assembly in
Lima, Peru;

RECOGNIZING that all the rights and obligations of member states under the OAS
Charter represent the foundation on which democratic principles in the Hemisphere
are built; and
BEARING IN MIND the progressive development of international law and the
advisability of clarifying the provisions set forth in the OAS Charter and related basic
instruments on the preservation and defense of democratic institutions, according
to established practice,

RESOLVES:
To adopt the following:

                      INTER-AMERICAN DEMOCRATIC CHARTER

                                                    I
                        Democracy and the Inter-American System
Article 1
The peoples of the Americas have a right to democracy and their governments have
an obligation to promote and defend it.

Democracy is essential for the social, political, and economic development of the
peoples of the Americas.

Article 2

The effective exercise of representative democracy is the basis for the rule of law
and of the constitutional regimes of the member states of the Organization of
American States. Representative democracy is strengthened and deepened by
permanent, ethical, and responsible participation of the citizenry within a legal
framework conforming to the respective constitutional order.

Article 3
Essential elements of representative democracy include, inter alia, respect for human
rights and fundamental freedoms, access to and the exercise of power in accordance
with the rule of law, the holding of periodic, free, and fair elections based on secret
balloting and universal suffrage as an expression of the sovereignty of the people,
the pluralistic system of political parties and organizations, and the separation of
powers and independence of the branches of government.

Article 4

Transparency in government activities, probity, responsible public administration on
the part of governments, respect for social rights, and freedom of expression and of
the press are essential components of the exercise of democracy.



OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   53 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED


           The constitutional subordination of all state institutions to the legally constituted civilian
           authority and respect for the rule of law on the part of all institutions and sectors of
           society are equally essential to democracy.

           Article 5

           The strengthening of political parties and other political organizations is a priority for
           democracy. Special attention will be paid to the problems associated with the high
           cost of election campaigns and the establishment of a balanced and transparent
           system for their financing.

           Article 6
           It is the right and responsibility of all citizens to participate in decisions relating to
           their own development. This is also a necessary condition for the full and effective
           exercise of democracy. Promoting and fostering diverse forms of participation
           strengthens democracy.

                                                               II
                                            Democracy and Human Rights
            Article 7
           Democracy is indispensable for the effective exercise of fundamental freedoms
           and human rights in their universality, indivisibility and interdependence, embodied
           in the respective constitutions of states and in inter-American and international human
           rights instruments.

           Article 8

           Any person or group of persons who consider that their human rights have been
           violated may present claims or petitions to the inter-American system for the
           promotion and protection of human rights in accordance with its established
           procedures.

           Member states reaffirm their intention to strengthen the inter-American system for
           the protection of human rights for the consolidation of democracy in the Hemisphere.

           Article 9

           The elimination of all forms of discrimination, especially gender, ethnic and race
           discrimination, as well as diverse forms of intolerance, the promotion and protection
           of human rights of indigenous peoples and migrants, and respect for ethnic, cultural
           and religious diversity in the Americas contribute to strengthening democracy and
           citizen participation.

           Article 10
           The promotion and strengthening of democracy requires the full and effective exercise
           of workers’ rights and the application of core labor standards, as recognized in the
           International Labour Organization (ILO) Declaration on Fundamental Principles and
           Rights at Work, and its Follow-up, adopted in 1998, as well as other related
           fundamental ILO conventions. Democracy is strengthened by improving standards


54 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED


in the workplace and enhancing the quality of life for workers in the Hemisphere.

                                                   III
              Democracy, Integral Development, and Combating Poverty
Article 11

Democracy and social and economic development are interdependent and are
mutually reinforcing.

Article 12

Poverty, illiteracy, and low levels of human development are factors that adversely
affect the consolidation of democracy. The OAS member states are committed to
adopting and implementing all those actions required to generate productive
employment, reduce poverty, and eradicate extreme poverty, taking into account
the different economic realities and conditions of the countries of the Hemisphere.
This shared commitment regarding the problems associated with development and
poverty also underscores the importance of maintaining macroeconomic equilibria
and the obligation to strengthen social cohesion and democracy.

Article 13

The promotion and observance of economic, social, and cultural rights are inherently
linked to integral development, equitable economic growth, and to the consolidation
of democracy in the states of the Hemisphere.

Article 14

Member states agree to review periodically the actions adopted and carried out by
the Organization to promote dialogue, cooperation for integral development, and the
fight against poverty in the Hemisphere, and to take the appropriate measures to
further these objectives.

Article 15

The exercise of democracy promotes the preservation and good stewardship of the
environment. It is essential that the states of the Hemisphere implement policies
and strategies to protect the environment, including application of various treaties
and conventions, to achieve sustainable development for the benefit of future
generations.

Article 16
Education is key to strengthening democratic institutions, promoting the development
of human potential, and alleviating poverty and fostering greater understanding among
our peoples. To achieve these ends, it is essential that a quality education be available
to all, including girls and women, rural inhabitants, and minorities.

                                                   IV
               Strengthening and Preservation of Democratic Institutions
Article 17


OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   55 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED


           When the government of a member state considers that its democratic political
           institutional process or its legitimate exercise of power is at risk, it may request assistance
           from the Secretary General or the Permanent Council for the strengthening and
           preservation of its democratic system.

           Article 18

           When situations arise in a member state that may affect the development of its
           democratic political institutional process or the legitimate exercise of power, the Secretary
           General or the Permanent Council may, with prior consent of the government concerned,
           arrange for visits or other actions in order to analyze the situation. The Secretary General
           will submit a report to the Permanent Council, which will undertake a collective
           assessment of the situation and, where necessary, may adopt decisions for the
           preservation of the democratic system and its strengthening.

           Article 19
           Based on the principles of the Charter of the OAS and subject to its norms, and in
           accordance with the democracy clause contained in the Declaration of Quebec City,
           an unconstitutional interruption of the democratic order or an unconstitutional alteration
           of the constitutional regime that seriously impairs the democratic order in a member
           state, constitutes, while it persists, an insurmountable obstacle to its government’s
           participation in sessions of the General Assembly, the Meeting of Consultation, the
           Councils of the Organization, the specialized conferences, the commissions, working
           groups, and other bodies of the Organization.

           Article 20

           In the event of an unconstitutional alteration of the constitutional regime that seriously
           impairs the democratic order in a member state, any member state or the Secretary
           General may request the immediate convocation of the Permanent Council to undertake
           a collective assessment of the situation and to take such decisions as it deems
           appropriate.

           The Permanent Council, depending on the situation, may undertake the necessary
           diplomatic initiatives, including good offices, to foster the restoration of democracy.

           If such diplomatic initiatives prove unsuccessful, or if the urgency of the situation so
           warrants, the Permanent Council shall immediately convene a special session of the
           General Assembly. The General Assembly will adopt the decisions it deems appropriate,
           including the undertaking of diplomatic initiatives, in accordance with the Charter of the
           Organization, international law, and the provisions of this Democratic Charter.
           The necessary diplomatic initiatives, including good offices, to foster the restoration of
           democracy, will continue during the process.

           Article 21
           When the special session of the General Assembly determines that there has been an
           unconstitutional interruption of the democratic order of a member state, and that
           diplomatic initiatives have failed, the special session shall take the decision to suspend
           said member state from the exercise of its right to participate in the OAS by an affirmative
           vote of two thirds of the member states in accordance with the Charter of the OAS. The


56 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED


suspension shall take effect immediately.

The suspended member state shall continue to fulfill its obligations to the
Organization, in particular its human rights obligations.

Notwithstanding the suspension of the member state, the Organization will maintain
diplomatic initiatives to restore democracy in that state.

Article 22

Once the situation that led to suspension has been resolved, any member state or
the Secretary General may propose to the General Assembly that suspension be
lifted. This decision shall require the vote of two thirds of the member states in
accordance with the OAS Charter.

                                                   V
                     Democracy and Electoral Observation Missions
Article 23

Member states are responsible for organizing, conducting, and ensuring free and
fair electoral processes.

Member states, in the exercise of their sovereignty, may request that the Organization
of American States provide advisory services or assistance for strengthening and
developing their electoral institutions and processes, including sending preliminary
missions for that purpose.

Article 24

The electoral observation missions shall be carried out at the request of the member
state concerned. To that end, the government of that state and the Secretary General
shall enter into an agreement establishing the scope and coverage of the electoral
observation mission in question. The member state shall guarantee conditions of
security, free access to information, and full cooperation with the electoral observation
mission.

Electoral observation missions shall be carried out in accordance with the principles
and norms of the OAS. The Organization shall ensure that these missions are
effective and independent and shall provide them with the necessary resources for
that purpose. They shall be conducted in an objective, impartial, and transparent
manner and with the appropriate technical expertise.

Electoral observation missions shall present a report on their activities in a timely
manner to the Permanent Council, through the General Secretariat.
Article 25

The electoral observation missions shall advise the Permanent Council, through
the General Secretariat, if the necessary conditions for free and fair elections do not
exist.




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   57 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED


           The Organization may, with the consent of the state concerned, send special mis-
           sions with a view to creating or improving said conditions.

                                                              VI

                                         Promotion of a Democratic Culture
           Article 26
           The OAS will continue to carry out programs and activities designed to promote
           democratic principles and practices and strengthen a democratic culture in the
           Hemisphere, bearing in mind that democracy is a way of life based on liberty and
           enhancement of economic, social, and cultural conditions for the peoples of the
           Americas. The OAS will consult and cooperate on an ongoing basis with member
           states and take into account the contributions of civil society organizations working
           in those fields.
           Article 27

           The objectives of the programs and activities will be to promote good governance,
           sound administration, democratic values, and the strengthening of political institutions
           and civil society organizations. Special attention shall be given to the development
           of programs and activities for the education of children and youth as a means of
           ensuring the continuance of democratic values, including liberty and social justice.

           Article 28
           States shall promote the full and equal participation of women in the political structures
           of their countries as a fundamental element in the promotion and exercise of a
           democratic culture.




58 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED


                                                                              ATTACHMENT 3

                      Alleged Resignation of President Chávez




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   59 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




60 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED


                                                                               ATTACHMENT 4

      April 12, 2002, Río Group Statement on the Situation in Venezuela




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   61 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




62 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED




                                                   -3 -
                          DECLARACION DEL GRUPO DE RIO
                         SOBRE LA SITUACION EN VENEZUELA

   Los Presidentes de los países miembros del Mecanismo Permanente de Consulta y
   Concertación Política, Grupo de Río, ante los hechos ocurridos en Venezuela, y
   ratificando su adhesión a los procedimientos democráticos y al Estado de Derecho,
   expresan lo siguiente:

   1)       Reafirman el Derecho de los pueblos a la democracia y la obligación de los
            gobiernos de promoverla y defenderla, y reconocen que la democracia
            representativa es indispensable para la paz y el desarrollo de la región dentro
            del marco de la Carta Democrática Interamericana.

   2)       Lamentan los hechos de violencia que han provocado la pérdida de vidas
            humanas y acompañan al pueblo venezolano en su deseo de reconstruir una
            democracia plena, con garantías ciudadanas y de respeto a las libertades
            fundamentales.

   3)       Condenan la interrupción del orden constitucional en Venezuela, generada por
            un proceso de polarización creciente.

   4)       Insta a la normalización de la institucionalidad democrática en el marco de la
            Carta Democrática Interamericana y a dar los pasos necesarios para la
            realizacion de elecciones claras y transparentes, en consonancia con los
            mecanismos previstos por la Constitución venezolana.

   5)       Informa que el Grupo de Río ha solicitada al Secretario General de la OEA la
            convocatoria de una sesión extraordinaria del Consejo Permanente conforme
            a1 articulo 20 de la Carta Democratica Interamericana, para realizar una
            apreciación colectiva de la situación y adoptar las decisiones que estime
            conveniente.

   6)       Solicitamos al Secretario General de la OEA, se disponga a tomar contacto
            con la realidad política de Venezuela a través de los medios que considere más
            adecuados.


                                  San José, 12 de abril del 2002


   CPO9565S01




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   63 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




64 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED


                                                                                    ATTACHMENT 5

      Organization of American States Resolution on the Situation in Venezuela




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   65 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




66 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED
                                                                                         ATTACHMENT 6

            Report of the Secretary General of the Organization of American States,
               Cesar Gaviria, Pursuant to Resolution CP/RES. 811(1315/02)

                       REPORT OF THE SECRETARY GENERAL OF THE
                          ORGANIZATION OF AMERICAN STATES,
                                    CESAR GAVIRIA,
                      PURSUANT TO RESOLUTION CP/RES. 811(1315/02)
                                   Situation in Venezuela
                               Washington D.C. April 18, 2002

         As Secretary General of the OAS, it is incumbent upon me to present to this special ses-
sion of the General Assembly the report mandated by the Permanent Council in resolution CP/
RES. 811 (1315/02), pursuant to Article 20 of the Inter-American Democratic Charter. This reso-
lution directed me to carry out a fact-finding mission and undertake the necessary initiatives, in-
cluding good offices, to promote as quickly as possible the normalization of the democratic institu-
tional framework.

        Once the presidents of the Rio Group had concluded their meeting in Costa Rica last Friday,
April 12, I was informed of their decisions both by President Miguel Angel Rodríguez and by Foreign
Minister Roberto Rojas. I was able to exchange views with them throughout the day, along with the
Chair of the Permanent Council, Ambassador Margarita Escobar, and I closely followed their
deliberations. At the end of the meeting, we undertook consultations with a view to following up on
the Group of Rio’s request that a meeting of the Permanent Council be held as soon as possible. The
presidents also asked me to ascertain the political reality in Venezuela by the means I deemed most
appropriate.

       It should be noted that the Rio Group considered President Chávez’ resignation a fait
accompli, along with the removal of the vice president and the cabinet. Consequently, no request
was made for his return to power as part of the necessary actions to defend constitutional order .

         In informal and closed meetings the previous Friday evening and Saturday, under the able
leadership of Ambassador Margarita Escobar, the Council examined the situation in Venezuela,
condemned the alteration of constitutional order and the deplorable acts of violence, and expressed
solidarity with the people of that country. On Saturday morning, the self-styled president of the
transitional government called to report that there had been an alteration of constitutional order and
to make other statements contained in a message that was distributed to the delegations, He also
said that they wished to be represented at the meeting by an official in the Venezuelan mission, and
that they would subsequently send his credentials. All of this was brought to the attention of the
missions. I told him that the following day I would be traveling to Caracas pursuant to the mandate
that the Permanent Council.

         As authorized by the Permanent Council, the Secretary General was accompanied by
Ambassador Margarita Escobar, Chair of the Permanent Council, and Ambassador Lisa Shoman,
Representative of Belize and spokesperson for CARICOM. Some of the ambassadors of the Rio
Group were not able to travel with me because the mission had to leave on such short notice. The
ambassadors accompanying me were of great service and gave me very valuable advice, but I
should make clear that everything I said during the mission—in private meetings, to the mass media,
and in this report—is my sole responsibility.

OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   67 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED


                You will surely understand the difficulty in presenting a report on the full range of incidents
       that took place. Nonetheless, I have endeavored to make a succinct presentation on the events leading
       up to April 11 to 13, which should in no way be interpreted as a justification of the alteration of
       constitutional order. It is merely a brief review of the context in which the tragic events of April 11.

               Given the very difficult situation experienced by democratic institutions in Venezuela, I also
       thought it advisable to look at aspects of the country’s institutional order in relation to the Democratic
       Charter, I should begin by stating that, until it is proven otherwise, the organizers of the demonstration
       convened by the political opposition and many social organizations on the days prior to, and on, April 11
       were different from those who usurped power, detained President Chávez, and endeavored to establish
       what they referred to as a provisional government. This government’s rule was broadly and widely
       rejected not only because of its origins, but also owing to its decisions, which resulted in the closing
       down of institutions established by popular vote, the intervention of the Judiciary and the so-called
       “moral power” organizations, and in practice the derogation of the Constitution and many actions
       taken in accordance with it.

               What we can say is that the government, which was in the process of just being established,
       without any democratic legitimacy, was the result of decisions taken by the military. In a letter made
       available to the members of the Permanent Council, the person heading the self-styled provisional
       government specifically recognized the constitutional breach.

              Fortunately for the democratic institutions in Venezuela, this alteration of constitutional order
       was reversed by the reaction of a considerable number of officers of the Armed Forces and by a
       vigorous reaction by citizens, both defenders and opponents of the Government of President Chávez.

                As part of the charge entrusted to me, I met with a broad spectrum of representatives for the
       country’s leading institutions, such as President Hugo Chávez and his foreign minister; the leadership
       of the National Assembly; the Attorney General, the comptroller general, the ombudsman, the president
       of the Supreme Court. I also met with the Cardinal and with representatives of the Bishops’ Conference,
       civil society groups, representatives of some daily newspapers, television and radio networks, the
       Confederation of Workers, members of opposition parties in the National Assembly, and other figures
       who came with documents expressing their opinions on the incidents and giving their interpretation of
       the reality in Venezuela.

                Distinguished foreign ministers: After my talks with the various sectors, I would like to make
       the following points.

                 The President of the Republic, in all of his speeches, has spoken of reflection, of rectification,
       of amendment. He gave assurances “that there will be no desire for reprisals, for persecution, for
       abuse”; that what happened serves as a “major lesson”; “that the situation calls for deep reflection”;
       that it is necessary to act with “patience and good sense”; that it is necessary “to correct what needs
       to be corrected”; that “dialogue must be reestablished.”

                He spoke also of “unity while respecting differences” and noted that his first step would be to
       convene the Federal Council of Government as the epicenter of dialogue with all sectors, so as to
       reach the greatest possible degree of consensus in the economic, social, and political areas. He also
       stated that the president-designate of Petroleos de Venezuela (PDVSA) and the junta he appointed


68 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                          UNCLASSIFIED



had resigned, which would put an end to the issue that gave rise to the recent protests.

         Although a good number of representatives of organizations outside the government have
accepted the call of the President for dialogue, even after the fateful events of April 11 and 12, there
is excessive polarization, not only among the natural political actors, such as the government, the
political parties, and opposition groups, but among almost all labor, business, and civil society groups,
representatives of some other branches of government, and the media. This excessive polarization
has shades of intolerance that stand in the way of democratic dialogue and the quest for agreements
that would provide a degree of understanding so as to maintain social harmony. There seems to be a
widespread conviction that renewed confrontation between friends and opponents of the government
is inevitable and could lead to increased social protest.

        I also want to note the development of a dangerous practice of debate within the armed
forces. Many leaders of public affairs constantly listen for what the various armed forces have to
say about political developments, and even about the orders of the Commander in Chief, Constitutional
President of the Republic. Some cite an article of the Constitution as grounds for such debate.

         Opposition groups and other leaders of society distance themselves from constitutional
standards in different ways. In particular, they express concern about the separation and independence
of the branches of government and the lack of checks and balances in the specific case of Venezuela,
since they believe that the leading figures were chosen by political majorities within the Assembly.
The opposition representatives in the Assembly have called attention to a recent ruling by the Supreme
Court of Justice which concludes that the presidential term begins in January, 2002.

         Since the events mentioned earlier, there have been increased reports of human rights
violations, acts of intimidation, and significant acts of vandalism and looting, and increasing numbers
of persons dead or injured. This happened before, during and after the recent crisis. We referred
these cases to the IACHR and, in some cases, to the Commission’s Rapporteur for Freedom of
Expression as well.

         This Mission has received numerous complaints alleging that the Bolivarian Circles are
responsible for these actions. The Bolivarian Circles are groups of citizens or grassroots organizations
who support the President’s political platform. Many sectors consider them responsible for the human
rights violations, acts of intimidation, and looting.

         Representatives of television network owners and a group of journalists believe that the
Bolivarian Circles represent the greatest threat to freedom of the press and of expression. Several
of these cases have already been submitted to the Inter-American Commission on Human Rights
and to the Rapporteur for Freedom of Expression. It would be advisable for the government to work
on these issues and to dispel many of the serious doubts that have arisen.

         Television network representatives complain of the abrupt interruption of their private television
channel signals, which they consider a violation of the Organic Telecommunications Act. This produced
a systematic interruption of programming, with long statements by the President and other executive
officials in the days leading up to April 11. They also demand that, in keeping with the IACHR
recommendation, the Government issue “a categorical denunciation of the acts of aggression to
which media personnel have been subjected.”

    OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   69 .

                                          UNCLASSIFIED
                                           UNCLASSIFIED

               On the other hand, authorities representing the branches of government pointed to a lack of
       objectivity in some media outlets’ reporting on the events that led to the restoration of constitutional
       order. Some media organizations have noted such concerns or complaints about the events and have
       provided explanations. It is not my place to judge whether those explanations are satisfactory or
       whether the objections raised are valid.

               Representatives of opposition parties in the National Assembly consider their minority rights
       to have been violated. They called attention to the use of mechanisms of the enabling law. This is an
       old provision in Venezuelan constitutions that bestows on the Executive extensive legislative powers.
       The government of President Chavez made wide use of these powers, and illustrated the great resistance
       generated by the approval of norms without parliamentary debate and without public discussion in the
       Assembly.

                The Venezuelan Confederation of Workers (CTV) (Central de Trabajadores de Venezuela)
       demanded that the Executive accept the CTV leaders chosen in the election called at the initiative of
       the national government itself. This confederation and its leaders are recognized by the International
       Labour Organization (ILO) and this demand can also be viewed in light of Article 10 of the Democratic
       Charter. The CTV leaders also call for the convocation of tripartite dialogue.

               For those reasons, at meetings with various sectors, I took the liberty of proposing actions I
       believe should be taken immediately to prevent further expressions of discontent that could bring
       about other tragic events like those of April 11 and 12. In any case, it is important to reiterate some of
       the preambular and operative paragraphs of the Permanent Council resolution, especially as they
       regard repudiation of any breach of the constitutional order and condemnation of the violent events in
       which a number of people lost their lives.

               The OAS, its member countries, the international community, and other organizations such as
       the Catholic Church, via the Conferencia Episcopal, could assist in fostering dialogue to ensure that
       these incidents are not repeated.

              I would like to highlight, as well, some measures that must be taken to defuse some of the
       more serious conflicts, to regain governability, to achieve political stability, and to foster economic
       recovery.

                It is fundamental that all sectors of society, at least all those I have referred to, seek mechanisms
       or agreements which ensure that respect for the Constitution is the foundation and framework of
       action for everyone in Venezuelan public life.

                It is imperative that an agreement be reached so that Article 350 of the Constitution is not
       interpreted as everyone’s right to rebellion. Such an interpretation might well lead to worse violence
       than that which has already occurred. Everyone must do their part to reach that understanding.

                It is essential that the government, opposition, social actors, human rights organizations and
       the media commit to rejecting any participation in political debate on the part of the military, and to
       supporting military regulations which penalize this behavior. It is also essential that we abandon the
       interpretation held by some that that article of the constitution can serve as the basis for actions of any
       officials of the armed forces. I would like to reiterate that if we do not move in this direction, we could
       see new acts of insubordination against the civilian authorities. This General Assembly should be


70 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                          UNCLASSIFIED

categorical in pointing out the obligation of constitutional subordination of all state institutions to the
legally constituted civilian authority, as enshrined in Art. 4 of the Democratic Charter.

         It is an absolute necessity to resort only to peaceful measures. The state, and let there be no
doubt about this, must retain a monopoly on the legitimate use of force. The accusations that certain
sectors are jeopardizing the legitimate use of force must be investigated. In all cases, any use of force
must occur under authorization and within the normative framework to which the military adheres.

         It is very important for Venezuela’s democracy that the investigations into the tragic events
surrounding the demonstrations of April 11 are conducted in such a way that their conclusions are
accepted by all and that those responsible meet head-on the full weight of the law. What I say should
not be interpreted as undermining the legitimately constituted authorities. With a good dose of political
will, this can be achieved. In any case, we must learn from this experience because demonstrations
with hundreds of thousands of people brings enormous risks.

       We have been informed that the Assembly is considering setting up a commission of 25
members would be in charge of investigating the facts. There are differences with respect to the
name of such a commission, the manner of its establishment and its composition.

         The government and opposition should do everything within their reach to guarantee the
separation of powers and effective checks and balances. Beyond the importance of establishing the
supremacy of the Constitution, it is essential to re-establish complete confidence in the rule of law and
ensure that all the pillars of society are to heed it. That is spelled out in Art. 4 of the Democratic
Charter.

         Whatever agreement is reached among the different sectors of Venezuelan society should,
as the Democratic Charter indicates, fully respect freedom of expression and therefore of the press.
It should be clear that any complaint or deficiency on this should be resolved in accordance with the
Declaration of Chapultepec. This Secretariat publicly expressed its confidence that the government
of President Chavez would resolve in a satisfactory manner concerns about security and intimidation
alleged by representatives of the media with whom I met.

        On the issue of television, it is important to come to an agreement on a code of conduct
which, beyond the issue of laws, ensures compatibility between public interest television transmissions
and the media’s normal programming.

         The international community should provide support to Venezuela to ensure that political
parties and other political groups or movements once again become the principle actors in Venezuelan
politics. The current vacuum, which other social sectors have sought to fill, has clearly demonstrated
its limitations. Here we could look to actions under Art. 5 of the Democratic Charter.

         This Mission would like to acknowledge the hospitality and support received from the
government of President Chávez. I hope that, by presenting this report for your consideration, I have
fulfilled the mandate of the Permanent Council. The OAS is at the disposal of the government and
people of Venezuela, so that from the tragic experience we might glean lessons to ensure that these
events are never repeated.

        Thank You.



    OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   71 .

                                          UNCLASSIFIED
                                           UNCLASSIFIED




72 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED


                                                                                ATTACHMENT 7

                   U.S. Department of State Press Statement April 12, 2002
                                Venezuela: Change of Government




  Press Statement
  Philip T. Reeker, Deputy Spokesman
  Washington, DC
  April 12, 2002


  Venezuela: Change of Government

  In recent days, we expressed our hopes that all parties in Venezuela, but especially
  the Chavez administration, would act with restraint and show full respect for the
  peaceful expression of political opinion. We are saddened at the loss of life. We wish
  to express our solidarity with the Venezuelan people and look forward to working with
  all democratic forces in Venezuela to ensure the full exercise of democratic rights.
  The Venezuelan military commendably refused to fire on peaceful demonstrators,
  and the media valiantly kept the Venezuelan public informed.

  Yesterday’s events in Venezuela resulted in a transitional government until new
  elections can be held. Though details are still unclear, undemocratic actions
  committed or encouraged by the Chavez administration provoked yesterday’s crisis
  in Venezuela. According to the best information available, at this time: Yesterday,
  hundreds of thousands of Venezuelans gathered peacefully to seek redress of their
  grievances. The Chavez Government attempted to suppress peaceful
  demonstrations. Chavez supporters, on orders, fired on unarmed, peaceful
  protestors, resulting in more than 100 wounded or killed. Venezuelan military and
  police refused orders to fire on peaceful demonstrators and refused to support the
  government’s role in such human rights violations. The government prevented five
  independent television stations from reporting on events. The results of these
  provocations are: Chavez resigned the presidency. Before resigning, he dismissed
  the Vice President and the Cabinet. A transition civilian government has promised
  early elections.

  We have every expectation that this situation will be resolved peacefully and
  democratically by the Venezuelan people in accord with the principles of the Inter-
  American Democratic Charter. The essential elements of democracy, which have
  been weakened in recent months, must be restored fully. We will be consulting with
  our hemispheric partners, within the framework of the Inter-American Democratic
  Charter, to assist Venezuela.

  [End]


  Released on April 12, 2002




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   73 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




74 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED



                                                                                ATTACHMENT 8

               Statement of the Ambassador of the United States to Venezuela
                                           (April 12, 2002)




             DECLARACIÓN DEL EMBAJADOR DE ESTADOS UNIDOS


  Ayer, el 11 de abril fue un día extraordinario en la historia venezolana. Fue también un
  día trágico.

  Lo que comenzó con manifestaciones pacificas -en ejercicio de un derecho funda-
  mental de las sociedades democráticas - terminó en violencia. Un gobierno que fue
  elegido libre y democráticamente terminó siendo un gobierno que cerró televisoras
  independientes, y por lo visto abrió fuego contra su propio pueblo.

  Los Estados Unidos lamenta profundamente los muertos y heridos y expresamos
  nuestro más sentido pésame a los familiares.

  Aplaudimos el anuncio del gobierno interino de que investigará la violencia de ayer.

  Alabamos la intención anunciada del gobierno transicional de fortalecer las
  instituciones y los procesos democráticos dentro de un marco de respeto a los
  derechos humanos y estado de derecho.

  Principalmente, felicitamos a esa in mensa mayoría de venezolanos que ayer
  demostraron virtudes y valores civicos ejemplares.

  La Embajada continúa observando muy de cerca los acontecimientos en Venezuela.




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   75 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




76 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED



                                                                                ATTACHMENT 9

                  U.S. - Spain Joint Statement on the Situation in Venezuela
                                           (April 12, 2002)




    Press Statement
    Philip T. Reeker, Deputy Spokesman
    Washington, DC
    April 12, 2002


    US-Spain Joint Statement on the Situation in Venezuela

    Following is a joint statement by the United States and Spain issued April 12, 2002
    in Washington.

    The Governments of the United States of America and Spain, in the framework of
    their reinforced political dialogue, are following the events as they develop in
    Venezuela with great interest and concern and in continual contact.

    In this regard, the two Governments:

        ·    state their rejection of the acts of violence that have caused a number of
             fatalities and transmit their condolences to the families,

        ·    call for a cessation of the violence and the recovery of public calm,

        ·    express their desire that the exceptional situation Venezuela is
             experiencing lead in the shortest possible time to full democratic
             normalization and work to obtain a national consensus and the guarantee
             of fundamental rights and freedoms,

        ·    urge the Organization of American States to assist Venezuela in
             consolidating its democratic institutions.

    While expressing their full support and solidarity with the people of Venezuela, the
    Governments of the United States of America and Spain, state their conviction that
    only the consolidation of a stable democratic framework can offer a future of
    freedom and progress to the Venezuelan people.

    [End]
    Released on April 12, 2002




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   77 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




78 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED



                                                                              ATTACHMENT 10

                 Foreign Operations, Export Financing and Related Programs
                     Appropriations Act, 2002 (The Foreign Assistance Act)
  The Act is referred to in the classified Annex to this report. For convenience of reference, it is
                   grouped here with the other attachments to the review report.




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   79 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




80 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   81 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




82 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                          UNCLASSIFIED
                                                                                     ATTACHMENT 11



    ELEMENTS OF REMARKS MADE BY ROGER F. NORIEGA AT INFORMAL
          PRIVATE SESSION OF OAS PERMANENT COUNCIL
         April 13, 2002, 1:00 PM, OAS Headquarters

l   We would like to support completely the Chair’s draft
    for this resolution which includes Article 20 of the
    Inter-American Democratic Charter.

l   I have been alarmed by events in Venezuela, not just in
    the last 24 hours, but in the last 24 months. Frankly,
    we in the OAS have not helped the situation at all. The
    crisis has only become disastrous in the last two days.
    I would like to know what we would be saying today if
    the military had not refused to refused orders of the
    Government of Venezuela to fire on its own people. What
    if thousands more were dead?

l   We have sat silent in this organization. The U.S. tried
    to apply the Democratic Charter to the situation in
    Haiti but it was not applied because this was seen as an
    attempt to sanction Haiti.  Now, however, we are rushing
    to judgment on Venezuela.  We should be looking forward
    to see how we can use the Democratic Charter in a
    constructive way.  However, in this particular session,
    we should not prejudge the actions of a special General
    Assembly. We want the facts. The Secretary Genera’s
    comments show the fluidity of events in Venezuela now:
    “We don’t know what is going on in Venezuela.”

l   We all agree with others that we must be rigorous with
    those who call themselves the “provisional government.”
    We should make demands on them. Quite frankly, they are
    behaving sloppily, in an inauspicious way.  I am worried
    about the people of Venezuela now, not the political
    class.  Let’s be clear, and let’s be principled.

l   We need to be sure that the essential elements of
    democracy are respected: “human rights and fundamental
    freedoms, access to and the free exercise of power in
    accordance with the rule of law”; a “pluralistic system
    of political parties and organizations”; “separation of
    powers and independence of the branches of government”;


    OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   83 .

                                          UNCLASSIFIED
                                               UNCLASSIFIED




                “freedom of expression and of the press”; “constitutional
                subordination of all state institutions to the legally
                constituted civilian authority.”

       l        They need to prove “legitimacy”-that they are the legally
                constituted government of Venezuela.   We must know if they
                are.   The Secretary General should travel to find that
                out.

       l        We need to remember that we are not writing a communiqué
                today: it is a resolution in the context of the Inter-
                American Democratic Charter.  My delegation objects to
                Mexico’s suggestion that we say “interruption of the
                constitutional order” because that is a determination to
                be made by the General Assembly. If we are going to have
                a special General Assembly, then why make decisions that
                are reserved for their determination?  The role of the
                Permanent Council is elsewhere, in Articles 18 and 19.

       l        We support invocation of Article 20 of the Democratic
                Charter.   If the General Assembly says “unconstitutional
                interruption of the democratic order,” this refers to
                Article 21.   Brazil’s proposed amendment is helpful; to
                say “unconstitutional alteration of the constitutional
                order.”

       l        The U.S. is prepared to accept some reference to
                “alteration of the constitutional regime” but we are not
                sure whether it was constitutional or not, based on what
                some have said about Article 350 of the Venezuelan
                Constitution.  But to say that it “seriously impairs the
                democratic order,” or to call it an “interruption of the
                democratic order,” has a broader implication, and we are
                not sure that has happened yet.

       l        We ask that we take it a step at a time. Venezuela will
                have our attention for many more months.  The Permanent
                Council does not need to pretend to solve all the problems
                of Venezuela in one resolution.  But when the competent
                authorities are convened, we should take the appropriate
                steps.


84 .       OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                               UNCLASSIFIED
                                      UNCLASSIFIED



                                                                              ATTACHMENT 12

              Photographs of Caracas Demonstration, April 11, 2002




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   85 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




86 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   87 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




88 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   89 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




90 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
                                      UNCLASSIFIED




OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002   91 .

                                      UNCLASSIFIED
                                           UNCLASSIFIED




92 .   OIG Report No. 02-OIG-003, A Review of U.S. Policy toward Venezuela - November, 2001- April, 2002   •   July 2002


                                           UNCLASSIFIED
